<html>
<title> - VETERANS CEMETERIES: HONORING THOSE WHO SERVED</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                          VETERANS CEMETERIES:


                       HONORING THOSE WHO SERVED

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2007

                               __________

                           Serial No. 110-19

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                     U.S. GOVERNMENT PRINTING OFFICE

35-638 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                              May 8, 2007

                                                                   Page
Veterans Cemeteries: Honoring Those Who Served...................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    29
Hon. Doug Lamborn, Ranking Republican Member.....................     2
    Prepared statement of Congressman Lamborn....................    29

                               WITNESSES

U.S. Department of Defense, Department of the Army, John C. 
  Metzler, Jr., Superintendent, Arlington National Cemetery, also 
  on behalf of the Soldiers' and Airmen's Home National 
  Cemeteries.....................................................     4
    Prepared statement of Mr. Metzler............................    30
U.S. Department of the Interior, National Park Service, Fred 
  Boyles, Superintendent, Andersonville National Historic Site 
  and Cemetery...................................................     5
    Prepared statement of Mr. Boyles.............................    33
American Battle Monuments Commission, Brigadier General John W. 
  Nicholson, USA (Ret.), Secretary...............................     6
    Prepared statement of General Nicholson......................    34
U.S. Department of Veterans Affairs, Hon. William F. Turek, Under 
  Secretary for Memorial Affairs, National Cemetery 
  Administration.................................................    22
    Prepared statement of Secretary Turek........................    39

                                 ______

American Veterans (AMVETS), Kimo S. Hollingsworth, National 
  Legislative Director...........................................    14
    Prepared statement of Mr. Hollingsworth......................    35
National Funeral Directors Association, Lesley Witter, Director 
  of Political Affairs...........................................    15
    Prepared statement of Ms. Witter.............................    36
National Association of State Directors of Veterans Affairs, 
  Colonel George S. Webb, USA (Ret.), Chairman, Memorial Affairs 
  Committee, and Executive Director, Kansas Commission on 
  Veterans' Affairs..............................................    16
    Prepared statement of Colonel Webb...........................    38

                   MATERIAL SUBMITTED FOR THE RECORD

Post Hearing Questions for the Record:
    Questions from Hon. Phil Hare, Member, Subcommittee on 
      Disability Assistance and Memorial Affairs, and Responses 
      from Hon. William Turek, Under Secretary for Memorial 
      Affairs, National Cemetery Administration, U.S. Department 
      of Veterans Affairs........................................    46
    Follow-up Letter to the Committee, dated May 17, 2007, from 
      Lesley Witter, Director of Political Affairs, National 
      Funeral Directors Association, in response to questions 
      asked by Congressmen Bilirakis and Hare....................    46


                          VETERANS CEMETERIES:



                       HONORING THOSE WHO SERVED

                              ----------                              


                          TUESDAY, MAY 8, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:21 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Hare, Berkley, Lamborn, Bilir
akis.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. The Subcommittee will proceed with the hearing on 
Veterans Cemeteries: Honoring Those Who Served.
    And I would ask our witnesses in panel one, John Metzler, 
Superintendent of the Arlington National Cemetery; Fred Boyles, 
Superintendent of the Andersonville National Cemetery and 
Historic Site; and Brigadier General John W. Nicholson, U.S. 
Army retired, 
Secretary of the American Battle Monuments Commission, to join u
s.
    Thanks again for all of you being here and thank you 
especially to our witnesses.
    Before I make my remarks, I would just suggest that we 
Pledge Allegiance to the Flag. Either end of the room will do.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you.
    Today's hearing on Veterans Cemeteries: Honoring Those Who 
Served will provide this Subcommittee and its members with an 
opportunity to receive an update on the cemeteries holding the 
remains of our veterans.
    As some may know, veterans who have served in this 
country's Armed Services are buried in cemeteries operated by 
the States, the VA, the Department of the Interior, Arlington 
National Cemetery, American Battle Monuments Commission, and 
private industry.
    From all reports, it appears that the VA's National 
Cemetery Administration is doing a good job running the 
cemeteries under its jurisdiction. However, I do have some 
concerns which I hope will be addressed today.
    First, I want the VA to expound upon its standard for 
creating new national cemeteries. Is the current standard 
adequate for both urban and rural locations and does the VA 
provide opportunity for public input during the new cemetery 
selection process?
    In addition, I would like to be updated on the current 
status of the National Shrine Commitment.
    Finally, I am looking forward to learning why it took close 
to a decade for the VA to display and recognize the Wiccan 
emblem. As most are aware, the military has long allowed 
Wiccans to practice their faith on military installations, but 
the VA, only recently, after litigation, started to allow the 
Wiccan symbol on gravestones.
    I would like to be assured that the statements made by 
President Bush in 1999 had nothing to do with the VA refusing 
to recognize the Wiccan symbol.
    Also, with respect to Arlington National Cemetery, I wish 
every cemetery could look as pristine and immaculate as the 
grounds at Arlington. However, this attractiveness does come at 
a cost.
    It has been reported that those waiting to be buried in 
Arlington face a backlog. I do not think that the veterans who 
have sacrificed so much for our country should have to wait to 
be buried nor should their families. I am interested in finding 
out about the burial process at Arlington and whether 
individuals do indeed face lengthy delays.
    I would also like the Superintendent to touch upon the 
recent burial of Jack Valenti. I would like to know why a 
veteran of his stature, over 50 combat missions during World 
War II, needed a waiver to be buried at Arlington.
    Next we will hear from a representative of the National 
Park Service which is responsible for operating several Civil 
War era cemeteries. It has come to my attention that some of 
these cemeteries are not being maintained at an acceptable 
standard worthy of those who have fought for this country.
    It would be nice to know if these reports are an aberration 
or signs of a pattern. If it is a pattern, please tell the 
Committee what it can do to improve the current situation.
    We will also hear from the American Battle Monuments 
Commission (ABMC) which very few Americans even know exists or 
what it is that they actually do. I am interested in learning 
about their efforts to educate people about Americans interred 
overseas.
    I also would like to note the significance of having the 
American Battle Monuments Commission testify on the 62nd 
anniversary of V-E Day.
    In closing, I would just like to say that I believe we must 
maintain our promise to those who have done so much for our 
country. Providing them a well-maintained and respectable final 
resting place is the least we can do.
    And I will now yield to Ranking Member Lamborn for an 
opening statement.
    [The prepared statement of Chairman Hall appears on p. 29.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, for holding this 
hearing on America's national cemeteries.
    I thank our witnesses in advance for their testimony today 
and 
for their dedication to serving America's veterans and their fam
ilies.
    Properly honoring a deceased veteran is one of our most 
solemn and indeed sacred obligations. These patriots have 
earned honored repose in a national shrine. They and their 
families are due the tribute and thanks of a grateful Nation.
    As members of the greatest generation pass from our 
presence, we are seeing increased demand on all of our national 
cemeteries. VA estimates that interments in national cemeteries 
will rise from the current level of 2.8 million to 3.2 million 
by 2012.
    Mr. Chairman, it is for that reason especially that I thank 
you for your leadership in helping to pass House Resolution 
1660 out of this Subcommittee 2 weeks ago. This bill would 
establish a national cemetery in southern Colorado and greatly 
benefit those veterans and families in this fast-growing area.
    Concerned that national cemeteries under its jurisdiction 
both new and old are maintained as national shrines, VA is at 
work fulfilling its excellent National Shrine Commitment. That 
effort, however, is still years from completion.
    That is why in the Fiscal Year 2008 Republican Views and 
Estimates, we recommended an additional $9 million over the 
Administration's $166.8 million request for operations and 
maintenance at VA's National Cemetery Administration.
    Further, Mr. Chairman, we recommended an additional $5 
million for minor construction. We also recommended an 
additional $60 million to accelerate VA's 5-year strategic plan 
to fund national cemetery gravesite expansion and shrine 
completion.
    We should not wait for years to ensure that the resting 
places for these patriots reflects our Nation's recognition of 
their service and sacrifice.
    It is my understanding that most of our national cemeteries 
are kept in excellent condition. Certainly my own experience at 
the Fort Logan National Cemetery reinforces this perception.
    I am pleased to note that we have today a representative of 
the American Battle Monuments Commission. The Commission's 
standards are legendary and I hope to soon visit one or more of 
their cemeteries for our war dead.
    Disappointing exceptions to these high standards do exist, 
however. Andersonville National Cemetery in Andersonville, 
Georgia, the site of the notorious Confederate prisoner of war 
camp, is one of 13 national cemeteries run by the National Park 
Service and it 
is one of two run by the Park Service that currently inters vete
rans.
    My staff is now passing out photos that depict the 
deteriorating condition of gravestones and construction at 
Andersonville. I look forward to learning more about operations 
and maintenance at this and other Park Service cemeteries as 
well as cemeteries run by VA and the ABMC.
    Mr. Chairman, it is within the capacity of Congress to help 
ensure that any national cemetery now deficient rises to the 
highest standards. We must not delay in that work.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 29.]
    Mr. Hall. Thank you, Mr. Lamborn.
    After the first panel has finished with their testimony, 
members will be recognized for 5 minutes to make remarks and/or 
ask questions.
    So at this time, I would like to recognize Mr. John 
Metzler, Superintendent of Arlington National Cemetery. Mr. 
Metzler.

 STATEMENTS OF JOHN C. METZLER, JR., SUPERINTENDENT, ARLINGTON 
 NATIONAL CEMETERY, DEPARTMENT OF THE ARMY, U.S. DEPARTMENT OF 
DEFENSE, AND ALSO ON BEHALF OF THE SOLDIERS' AND AIRMEN'S HOME 
NATIONAL CEMETERIES; FRED BOYLES, SUPERINTENDENT, ANDERSONVILLE 
  NATIONAL HISTORIC SITE AND CEMETERY, NATIONAL PARK SERVICE, 
U.S. DEPARTMENT OF THE INTERIOR; AND BRIGADIER GENERAL JOHN W. 
  NICHOLSON, USA (RET.), SECRETARY, AMERICAN BATTLE MONUMENTS 
    COMMISSION, ACCOMPANIED BY BRIGADIER GENERAL WILLIAM J. 
  LESZCZYNSKI, JR., USA (RET.), EXECUTIVE DIRECTOR, AMERICAN 
  BATTLE MONUMENTS COMMISSION, GUY GIANCARLO, CHIEF FINANCIAL 
 OFFICER, AMERICAN BATTLE MONUMENTS COMMISSION, JEANNIE FAURE, 
   BUDGET OFFICER, AMERICAN BATTLE MONUMENTS COMMISSION, AND 
   THOMAS R. SOLE, DIRECTOR OF ENGINEERING AND MAINTENANCE, 
              AMERICAN BATTLE MONUMENTS COMMISSION

               STATEMENT OF JOHN C. METZLER, JR.

    Mr. Metzler. Thank you, Mr. Chairman, members of the 
Subcommittee. Good afternoon.
    I appreciate the opportunity to testify in support of 
Arlington and the Soldiers' and Airmen's Home National 
Cemeteries run by the Department of the Army.
    Mr. Chairman, with your permission, I would like to briefly 
summarize my complete statement and ask that my full statement 
be submitted for the record. Thank you.
    Mr. Hall. That will be done.
    Mr. Metzler. Thank you, sir.
    In fiscal year 2006, we had an all-time record for 
interments at Arlington National Cemetery with 4,059 ground 
burials and 2,580 inurnments in the Columbarium of which 103 
were related to the War on Terrorism.
    I would also note that our operation costs are increasing 
as the cemetery continues to expand and improve as we make the 
overall appearance of our national shrine improve with each 
day.
    In fiscal year 2008, our budget includes funds for the 
expansion needs and efforts at Arlington National Cemetery to 
ensure that we remain an active, open burial space well into 
the next century.
    I am happy to report that phase one of a 40-acre land 
development project called LD90 has been completed. This 
project adds 26,000 graves to Arlington.
    Phase two is about to start later this year and will add a 
boundary niche wall which will add 5,000 niches when completed.
    In summary, Mr. Chairman, Arlington continues to be one of 
the most visited sacred grounds in our National Capitol region 
and accommodates almost 4 million visitors each year.
    Mr. Chairman, thank you for the opportunity to testify 
before your Committee on behalf of these cemeteries.
    [The prepared statement of Mr. Metzler appears on p. 30.]
    Mr. Hall. Thank you very much, Mr. Metzler.
    And the Chair will now recognize Mr. Boyles for his 
testimony.

                    STATEMENT OF FRED BOYLES

    Mr. Boyles. Good afternoon, Mr. Chairman. I genuinely 
appreciate the opportunity to represent the Department of the 
Interior today in talking about national cemeteries and their 
special place in our national parks.
    My name is Fred Boyles and I am the superintendent of 
Andersonville National Historic Site and National Cemetery 
which is a unit of our National Park system.
    I have been a National Park Superintendent since 1985 at 
three different sites. In reference to today's hearing, I have 
been the Superintendent at Andersonville National Cemetery 
since 1989.
    I was recently appointed in November 2006 as an ex officio 
member representing the National Park Service on the National 
Cemetery Advisory Commission of the Department of Veterans 
Affairs. And in this capacity, I have been able to work closely 
with the Department of Veterans Affairs on improving the 
management of our hallowed national cemeteries and the National 
Park Service.
    Also, as a Navy Reserve officer who was mobilized and 
deployed in 2004 in support of Operation Iraqi Freedom, I 
understand the meaning of these remarkable places from the 
perspective of our veterans.
    The National Park Service manages and protects 14 of the 
Nation's national cemeteries. Andrew Johnson and Custer 
National Cemetery at the Little Bighorn National Battlefield 
are cemeteries that the Park Service manages that are not Civil 
War sites. The other 12 are all Civil War related cemeteries.
    Two of our national cemeteries within the National Park 
Service are still open to veterans for burials. They are 
Andersonville National Cemetery in southwest Georgia, where I 
work, and Andrew Johnson National Cemetery located in east 
Tennessee.
    In 2006, Andersonville buried 161 veterans and their 
dependents while Andrew Johnson buried 67. As of January 2007, 
Andrew Johnson had approximately 457 grave spaces available and 
Andersonville had 6,669 grave spaces available.
    Both of these cemeteries follow the same rules and 
regulations for burials as those that are administered by the 
Department of Veterans Affairs. And I should say that in these 
cemeteries, the service that we give to our veterans and their 
families is the highest priority in our park operation.
    Cemeteries that are more than a century old require 
constant attention. Over the past 5 years, the National Park 
Service has devoted more than a million dollars in project 
funds to protect stone walls, headstones, monuments, and 
walkways in our cemeteries.
    Some examples of those that have recently been completed 
are $675,000 to repoint and repair the cemetery walls at 
Andersonville, Battleground Cemetery, Fort Donelson and 
Fredericksburg National Cemeteries.
    Recently $145,000 was spent to realign and maintain 
headstones at Gettysburg, Stones River, Vicksburg National 
Cemetery, and also at Andrew Johnson.
    In addition to these projects, each unit of the National 
Park Service with a national cemetery has a maintenance staff 
who has dedicated at least part of their time to maintaining 
headstones and grounds.
    In 2005, the National Center for Preservation Technology 
and Training delivered nine classes on cemetery preservation to 
some 300 National Park Service employees.
    The Center has also partnered with the Department of 
Veterans Affairs National Cemetery Administration on a multi-
year project to test cleaning agents for headstones.
    I should also add that the pictures that have been passed 
out, they are not up to date because all of our headstones have 
just been recently cleaned at Andersonville National Cemetery. 
So I think this is about 2 or 3 years old.
    While we have devoted funds and employees to cemetery 
maintenance, as is often the case with historic resources, much 
still remains to be done. And we are working closely with the 
VA to upgrade our cemeteries to the conditions set forth in 
their recently updated ``Cemetery Standards of Appearance.''
    Also, our cemeteries are part of the stories that make our 
parks special. Every day our park rangers give talks and 
programs to visitors about these cemeteries and their 
significance as places where conflict has shaped our past.
    Once again, I thank the Committee for allowing me to 
present this testimony and would be happy to answer any 
questions that any of you have about the National Park 
Service's national cemeteries.
    [The prepared statement of Mr. Boyles appears on p. 33.]
    Mr. Hall. Thank you, Superintendent Boyles.
    The Chair will now recognize General Nicholson.

        STATEMENT OF BRIGADIER GENERAL JOHN W. NICHOLSON

    General Nicholson. Mr. Chairman, members of the 
Subcommittee, I would like to begin my statement with the words 
of Harry Truman when he said----
    Mr. Hall. General, could you please push the button on your 
microphone and see if that works.
    General Nicholson. I will start over.
    Mr. Chairman and members of the Subcommittee, I would like 
to begin my statement with words of Harry Truman's when he 
said, ``Our debt to the heroic men and valiant women in the 
service of our country can never be repaid. They have earned 
our undying gratitude. Americans will never forget their 
sacrifices.''
    When visitors approach the new Normandy American Visitor 
Center that we will dedicate on June 6, these words of 
President Truman's are the first words these visitors will 
read. The statement mirrors the mission of the American Battle 
Monuments Commission which is to honor and commemorate the 
service, achievements, and sacrifice of America's Armed Forces.
    Our fiscal year 2008 appropriation request for $53.3 
million enables us to continue that mission. It funds the 
Commission's expenses and salaries account as well as our 
foreign currency fluctuation account.
    For our expenses and salaries account, we request $42.1 
million to support the Commission's requirements for service 
fees, scheduled maintenance and repairs, supplies, materials, 
spare parts, equipment replacement, capital improvement, and 
personnel costs.
    Our request maintains staffing levels at 404 full-time 
equivalent positions and $1.6 million for security enhancements 
to open and protect the Normandy Visitor Center, its employees, 
and its visitors. These security enhancements are required by 
the Regional Security Office of the U.S. Embassy in Paris.
    We have also included $1.4 million to support annual 
operations at the visitor center. Fiscal year 2008 funding 
provides the first full-year operating costs of the visitor 
center.
    Our ongoing worldwide ABMC challenge is to sustain the high 
standards of excellence we have set in maintaining our 
commemorative sites as shrines to America's war dead while 
continuing to do a better job of telling the story of those we 
honor and persuading millions more people of all nationalities 
to see these splendid sites which reflect the values of our 
United States of America.
    For our foreign currency fluctuation account, we request 
$11.2 million to replenish the funds needed to defray losses 
experienced due to currency fluctuation so we can maintain our 
buying power for services and materials to operate and sustain 
our commemorative sites in the European and Mediterranean 
regions.
    ABMC has struggled with maintaining our purchasing power 
over the years. In 2005, we needed a special foreign currency 
appropriation to do so. For fiscal year 2008, we propose a 
change in our approach to funding the foreign currency 
fluctuation account.
    New appropriation language requests an indefinite 
appropriation to supply ``such sums'' as may be necessary to 
maintain buying power against the European Euro, the British 
Pound, and other currencies. With this legislation, the 
Congress could use the such sums language proposal to re-
estimate our foreign currency requirements if needed during the 
year.
    Foreign currency is very important to ABMC. As noted by the 
U.S. Government Accountability Office (GAO), over 70 percent of 
ABMC's budget is paid in euros or pounds. The volatility of 
exchange rates combined with a weakening dollar has increased 
the real cost of our ABMC mission and made it more difficult to 
plan and budget as effectively as we would like.
    An indefinite appropriation would remove some foreign 
currency vagaries from our budget preparation and execution. 
For example, we began the fiscal year 2008 budget process a 
year ago which was 2 years before we will actually begin to 
purchase foreign currency to pay our staff and suppliers 
abroad. Exchange rates can change significantly over 2 years. 
The ``such sums'' appropriations language would enable the 
Congress to remove that uncertainty.
    On May 1st, 2006, one European Euro cost 1.2639 U.S. 
Dollars. One year later, on April 30th, 2007, one European Euro 
cost 1.366 U.S. Dollars, an 8 percent decrease in the 
purchasing power of the dollar. The ``such sums'' language 
would protect our purchasing power against such drops.
    ABMC would continue to work with the Office of Management 
and Budget (OMB), GAO, and the Congressional staff in choosing 
an appropriate currency rate for our budget submissions. 
However, the Congress by incorporating the ``such sums'' 
flexibility could prevent the situation where the foreign 
currency fluctuation is the determining factor in selecting 
which activities or projects we can afford to pursue.
    In other words, without ``such sums'' authorization, a 
decrease in the value of the U.S. Dollar vis-a-vis the European 
Euro or British Pound could necessitate a halt to vital 
maintenance projects in order to pay salaries or other 
expenses. Allowing us to focus on our mission is the real 
payoff of this ``such sums'' change in approach to foreign 
currency fluctuations.
    Our facilities, most of which were constructed following 
World War I and World War II, have aged considerably. Over 
time, deterioration accelerates and the cost of materials, 
labor, and utilities are increasing around the world.
    We are allocating $3 million toward high-priority 
engineering projects specifically designed to protect the 
American people's investment in the commemorative sites for 
which we are responsible. This funding will be used to perform 
periodic maintenance and to correct deficiencies within our 
infrastructure.
    Since 2002, the Commission has been in the process of 
designing and constructing a visitor center near the D-Day 
beach head at the Normandy American Cemetery in France. The 
visitor center will tell the story of the 9,387 American 
soldiers buried at Normandy and the 1,557 missing in action 
memorialized there.
    Construction is nearly complete and we will dedicate the 
new center 4 weeks from tomorrow, on June 6, 2007, the 63rd 
anniversary of the D-Day landings.
    Our challenge is to sustain the high standards of 
excellence we have set in maintaining our commemorative sites 
as shrines to America's war dead. Concurrently, we are doing a 
better job of telling the story of these uniquely splendid 
cemeteries and memorials which inspire patriotism, evoke 
gratitude, and teach history to all who visit.
    We are grateful for the support we receive from the House. 
The trust you place in us and your understanding of our 
operational needs ensures that we have sufficient resources 
when we need them to sustain our operations.
    I would like to close by introducing the members of my 
staff that accompanied me today, and I will begin with 
introducing Brigadier General William Leszczynski, Jr., U.S. 
Army retired, who is the Executive Director and Operating 
Officer at ABMC.
    Next, I would like to introduce Guy Giancarlo, the Chief 
Financial Officer. Next Jeannie Faure, our Budget Officer and 
Tom Sole, the Director of Engineering and Maintenance.
    Thank you, Mr. Chairman. This concludes my opening 
statement. I will be pleased to respond to your questions.
    [The prepared statement of General Nicholson appears on p. 
34.]
    Mr. Hall. Thank you, General, and thank you to your staff. 
Thank you to our other witnesses.
    I will just kick off with a couple of questions. 
Superintendent Metzler, would you estimate how long, on 
average, does a veteran have to wait to be buried? Is there a 
backlog for burials and does it matter whether the veteran died 
in OIF/OEF?
    Mr. Metzler. Mr. Chairman, there is no easy answer to your 
question, so let me see if I can take some of it apart. Let me 
go with the last of it first.
    On our servicemembers who are killed in active duty, we 
push those to the top of the schedule and we get as creative as 
we can with those burials to accommodate the families and make 
those funerals happen within 2 weeks if not sooner.
    The other question is asked about veterans being buried in 
the cemetery. It depends upon whether they are being inurned in 
the Columbarium or being buried in the ground, whether they 
have received full military honors, standard military honors, 
or request a chapel service. Each of these contribute to the 
delay, if you will, and often referred to as the backlog.
    The challenge I have is I have one chapel that is available 
to me, two caissons which are administered by the Department of 
the Army that we use for all branches of the military. Each of 
these funerals are more complicated. They take more time. I can 
only do eight of these funerals a day. I am currently averaging 
between 25 and 30 funerals each workday.
    So the average wait for someone who is asking for a full-
honor funeral with a chapel service in the middle of the 
workday and asking for a Catholic priest or a Jewish rabbi as 
they are not bringing their own clergy with them could be 4 to 
5 weeks.
    And that unfortunately happens all the time during this 
peak season, the spring and the summer when people are coming 
to Arlington in greater numbers. The numbers seem to fall off a 
little bit in the wintertime. But once the spring weather comes 
and people start traveling, with school breaks and so on, our 
funeral rate increases pretty much to a full schedule every 
day.
    Mr. Hall. And thank you, sir. I just wanted to ask you 
also, do you have currently any unfunded requirements?
    Mr. Metzler. My budget right now is sufficient to carry me 
forward with the projects that we have laid out at this time.
    Mr. Hall. Thank you. You are in a very small minority and 
we appreciate your saying that.
    Superintendent Boyles, I wanted to ask if there is anything 
the VA Committee can do to help the state of the gravesites 
under your jurisdiction. You mentioned before that it is not as 
bad as it was and there is, I guess, periodic cleanups or 
dealgaefication or whatever the term is. Can we help you more 
at this point?
    Mr. Boyles. Yes, sir, Mr. Chairman. It is interesting 
because these are dramatic pictures. And what you have is when 
these headstones, which were all placed in 1878, is that when 
you clean them, you are taking a little bit of a layer off of 
them. And so it has always been our desire to wait as long as 
possible before cleaning the stones because we want them to 
last as long as we can.
    And so it is generally either, one, we will clean them all, 
usually in the summer, every 2 or every 3 years and depending 
on how long we can get them to last. And one of the factors 
that contributes to that is how much it has rained. So if we 
have a very rainy season, we get more mildew and algae growing 
on them. And so we do our best to wait as long as possible.
    Mr. Hall. Thank you.
    And, lastly, General Nicholson, in your testimony, you 
request a change in the approach to funding. Specifically you 
request new language that allows for ``such sums'' as may be 
necessary to compensate for fluctuations in currency.
    Do any other Federal entities that you are aware of who 
operate overseas use similar language, and what is the genesis 
for the idea?
    General Nicholson. Yes, sir. I would like to answer the 
question.
    Mr. Hall. Would you turn your microphone on again, please. 
Thank you.
    General Nicholson. Sir, I am glad you asked that question. 
I believe the Justice Department uses that and I would ask Guy 
Giancarlo to elaborate on this.
    We did not originate the idea. The idea was suggested to 
us. I believe it is from OMB. And it has been working 
successfully with the other department. I believe it is the 
Justice Department.
    Guy, is that right?
    Mr. Giancarlo. Yes, sir. If I may, I am Guy Giancarlo, CFO. 
It is used by the Justice Department, their independent 
councils, and allows Congress to continue maintaining 
oversight.
    But because we are such a small agency, our total budget, 
$42 million in expenses, over 70 percent of those affected by 
foreign currency fluctuation, we cannot predict the tremendous 
decrease in the value of the dollar purchasing power vis-a-vis 
the European Euro that we have experienced this past year nor 
should we as such a government agency be forecasting what the 
exchange rate should be. So OMB suggested that we go the route 
similar to the Justice Department in terms of the independent 
councils. The question is indefinite appropriation.
    Mr. Hall. Thank you very much.
    My time is expired. So the Chair will now recognize Mr. 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Metzler, could you please describe the process to the 
Committee for getting a waiver from someone who wants to be 
buried in Arlington and then apart from that, what are the 
current requirements without a waiver?
    Mr. Metzler. Yes, sir. Anyone requesting a waiver, their 
letter would come into wherever it came into the government. It 
would eventually work itself to my office. We request that they 
provide a copy of their military records, any extenuating 
circumstances that would credit this individual with 
extraordinary contributions, and then a public disclosure 
consent form.
    We would take this, package it up, and submit it to the 
Assistant Secretary of the Army for Manpower Affairs with my 
recommendation. From that office, it would be staffed to 
various offices around the Pentagon and then eventually up to 
the Secretary of the Army for his decision.
    Once a decision is rendered, it would come back to my 
office and then we would inform the family as to whether or not 
the request has been approved or disapproved.
    As far as eligibility is concerned, there are two tracts at 
Arlington Cemetery, traditional ground burial. Anyone who dies 
on active duty is entitled to ground burial. Anyone who has 
retired from the military with 20 years of active-duty service 
or greater, anyone who has retired from the Reserves age 60 and 
one period of active-duty service is entitled.
    Veterans who are honorably discharged and also in receipt 
of our Nation's highest military awards, the Medal of Honor, 
the Distinguished Service Cross, Distinguished Service Medal, 
Silver Star, or the Purple Heart, former prisoners of war who 
have served honorably, honorably discharged veterans who also 
hold the office of Vice President, members of Congress, the 
members of the Supreme Court, and Ambassadors at a level one 
posting. The President of the United States or former 
Presidents of the United States do not have to have military 
service. All the individuals I referenced, their spouses or 
dependent children, and then any honorably discharged veteran 
with one period of active-duty service is entitled to have his 
or her cremated remains placed into our Columbarium.
    Mr. Lamborn. Thank you.
    Mr. Metzler. Yes, sir.
    Mr. Lamborn. And a second question is after the Project 90 
land is used up, do you have any further sites in mind that 
could be used beyond Project 90?
    Mr. Metzler. Yes. We are currently working three different 
other initiatives right now. The Millennium Project which is a 
piece of property that consists of a part of Arlington 
Cemetery, a former part of the National Park Service, and part 
of Fort Myer, all these pieces of property touch each other and 
will form a new burial section.
    Also Public Law 106-65 was passed a few years ago that 
would send to us the Navy Annex once it comes out of service. 
The Pentagon is currently using the Navy Annex as swing space 
for its renovation.
    And then finally, we have an initiative to relocate all our 
utilities that are currently in the grass underneath roadways. 
That will open that land up and give us additional grave space.
    Those three additional initiatives, plus the LD 90 Project 
that has just recently been completed will take us to the year 
2060 and we will have gravesites available for Arlington 
Cemetery for additional burials.
    Mr. Lamborn. Thank you.
    Mr. Metzler. Yes, sir.
    Mr. Lamborn. Those are all the questions I have at this 
time, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Lamborn.
    The Chair will now recognize Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    I could not concur more in terms of the sites for our 
veterans being considered shrines giving everything they have 
ever had for this country. I am fortunate to have one in my 
district, the Rock Island Army Arsenal Cemetery which I think 
is a wonderful facility.
    I just have one quick question for you, Mr. Metzler. You 
said that there is significant crowding, in your testimony, you 
said this is occurring at the Arlington National Cemetery, and 
you said this crowding is compromising the dignity of the 
funerals by distracting families at nearby services.
    I wonder if you could expand on that. What sort of delays 
are you experiencing and what actions are being taken to 
address it?
    Mr. Metzler. Well, the delays fall into what the families 
are asking for. If we have a standard military honors which 
consist of a firing party, a casket team, a bugler, and a 
chaplain, those funerals generally can be done within 2 weeks 
of the time of eligibility being established.
    It is when we get beyond and ask for what they call full-
honor funerals which only Arlington Cemetery has the capability 
of asking. Those amenities could include a caisson, a fly-over, 
the escort that marches along with the troops, and a band.
    The first challenge is are the military available the day 
you are asking. They have other duties and obligations around 
the National Capitol region. As an example right now, Queen 
Elizabeth is in our country visiting and some of those 
resources are dedicated to her visit. So when they are at that 
location, they may not be available to Arlington Cemetery.
    The next, of course, is training and availability with the 
horses. Anyone who is entitled to a full-honor funeral 
generally wants that full-honor funeral and wants the caisson 
as part of that service that is provided for them at Arlington.
    We only have two caisson units. On average, it takes about 
2 hours to start a funeral, to finish a funeral, and turn 
around to start again. So with two caissons, the maximum 
funerals we can do in 1 day are eight. People are very willing 
to wait for that honor and it may take several weeks for that 
to happen.
    All I can do is I can address it to the military. I can 
explain to them what our challenges are, ask them for their 
cooperation. They have been very willing to listen to me, but 
they are like everyone else. They have requirements and they 
can only provide to me what is available each day.
    Mr. Hare. I wonder if you would comment though. You said 
there is significant crowding and you stated that it is 
compromising the dignity of the funerals. What do you mean by 
that? In terms of the space limitations or----
    Mr. Metzler. Well, one of the things on the crowding is we 
do not want to have two funerals within the same visual or in 
the hearing area so that we do not have one funeral taking 
place two or three hundred yards away and another funeral 
taking place at the same time so you are hearing the firing 
parties going off simultaneously or hearing taps going off 
within a few seconds of each other. We are trying to make each 
funeral as special as possible and allow the family that moment 
while they are in the cemetery to think that they are the only 
thing going on while they are at Arlington. So we want to 
spread out our funeral areas to allow that to happen.
    Typically we are doing four and five funerals 
simultaneously in the cemetery throughout the workday.
    Mr. Hare. Well, it is a wonderful cemetery and I just 
commend you for all the hard work you have done.
    And I would yield back, Mr. Chairman. Thank you.
    Mr. Hall. Thank you, Mr. Hare.
    I will now recognize Representative Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    I wanted to ask Doug's question. How many waivers, sir, are 
submitted and how many are granted within a year?
    Mr. Metzler. On any average year, we receive about 20 to 25 
waivers. Most of the waivers that we receive are for family 
members that do not meet our normal eligibility criteria. They 
are going into the same grave that has already been established 
by a family member who is authorized. All of those are approved 
provided that they are not bringing along with them someone 
else in their family. So the benefit is limited to one person.
    For people who are asking for new graves, first-time burial 
in the cemetery, they are rare. We have not approved one since 
2001 at the Army level.
    Mr. Bilirakis. Thank you.
    Mr. Metzler, what steps has Arlington National Cemetery 
taken to implement the ``Respect for America's Fallen Heroes 
Act'' that was passed last Congress?
    Mr. Metzler. I am sorry, sir. I did not quite understand 
the last part of your question.
    Mr. Bilirakis. ``America's Fallen Heroes Act'' which was 
passed recently in the last Congress, what steps has Arlington 
National Cemetery taken to implement that Act?
    Mr. Metzler. Sir, I am not familiar with that. I need a 
little more information to answer your question.
    Mr. Bilirakis. Yeah. We worked on this in the legislature 
in Florida and it is the military demonstration. In other 
words, interrupting nuisances at funerals, what have you, and, 
you know, I was just told that--but I know we worked on that in 
the State of Florida. So you are familiar.
    Mr. Metzler. Now I am familiar with it. Thank you, sir.
    Mr. Bilirakis. Okay.
    Mr. Metzler. We have worked extensively with the United 
States Park Police who have the jurisdiction for Arlington 
Cemetery to ensure that when we do have a demonstration protest 
at Arlington Cemetery that they stay the proper distance away, 
that they do not interrupt the flow of traffic or funerals 
coming in and out of the cemetery, and that they are confined 
to an area that has no effect on the visiting public if they 
are walking to the cemetery as well. So for us, it has worked 
very well in the past few years.
    Mr. Bilirakis. Very good. So it is being enforced. Thank 
you.
    Mr. Metzler. Yes, sir.
    Mr. Bilirakis. Thank you.
    Mr. Hall. I just wanted to comment on that, ``Respect for 
America's Fallen Heroes Act,'' which was enacted on May 29th of 
2006, prohibiting protests within 300 feet of the entrance of a 
cemetery under the control of the National Cemetery 
Administration.
    We all can find out the details to that if we want, but it 
is passed unanimously by the Senate and overwhelmingly by the 
House and signed by the President.
    Representative Berkley.
    Ms. Berkley. Thank you very much, Mr. Chairman, and I will 
be brief because I know we want to get to the third panel.
    I just wanted to thank all of you gentlemen for the 
extraordinary service that you provide for our country and for 
our fallen heroes. While I have never had the honor and 
privilege of going overseas and seeing our cemeteries there, I 
have spent considerable time at Arlington both as a civilian 
visiting and enjoying it with my family and also as a member of 
Congress attending a number of services there.
    It is magnificent, and I thank you very much for what you 
have done. And you have my full support in helping you to 
continue the extraordinary work that you do.
    Mr. Metzler. Thank you.
    Mr. Hall. Thank you, Ms. Berkley.
    With that, I believe our first panel may be excused. Thank 
you, gentlemen. Superintendent Metzler, Superintendent Boyles, 
and General Nicholson, thank you very much for your testimony.
    And we will ask our second panel, Kimo Hollingsworth, the 
National Legislative Director of AMVETS; Lesley Witter, 
Director of Political Affairs for the National Funeral 
Directors Association; Colonel George S. Webb, U.S. Army 
retired, Executive Director of the Kansas Veterans Commission, 
to join us, please.
    Thank you all for being here and for your patience. The 
Chair will now recognize Mr. Hollingsworth.

   STATEMENTS OF KIMO S. HOLLINGSWORTH, NATIONAL LEGISLATIVE 
 DIRECTOR, AMERICAN VETERANS (AMVETS); LESLEY WITTER, DIRECTOR 
 OF POLITICAL AFFAIRS, NATIONAL FUNERAL DIRECTORS ASSOCIATION; 
  AND COLONEL GEORGE S. WEBB, USA (RET.), CHAIRMAN, MEMORIAL 
 AFFAIRS COMMITTEE, NATIONAL ASSOCIATION OF STATE DIRECTORS OF 
VETERANS AFFAIRS, AND EXECUTIVE DIRECTOR, KANSAS COMMISSION ON 
                       VETERANS' AFFAIRS

               STATEMENT OF KIMO S. HOLLINGSWORTH

    Mr. Hollingsworth. Mr. Chairman, members of the 
Subcommittee, thank you for holding this hearing regarding the 
National Cemetery Administration.
    AMVETS would like to say that overall, although burial 
benefits are that, benefits, this issue really transcends the 
issue of veterans' benefits. Both VA and State-sponsored VA 
cemeteries, they really define America's past, present, and it 
is really about preserving our history and our culture. Their 
final resting places are filled with history of a great Nation 
and we have said it before, but they really truly are national 
shrines.
    Mr. Chairman, Public Law 106-17 required VA to contract for 
an independent study on improvements to veterans cemeteries. 
Overall, VA provided this Committee with three volumes as part 
of the study on improvements to veterans cemeteries. I am not 
going to recap those in depth.
    Volume I provided an assessment of the number of additional 
cemeteries that would be required to ensure that 90 percent of 
the veterans live within 75 miles of a national cemetery 
beginning in 2005 and projecting out to about 2020.
    The national shrine commitment condition facility 
assessment report, it really provided the first independent 
systemwide comprehensive review of the conditions at 119 
national cemeteries at that time.
    Last but not least, cemetery standards of appearance 
address the requirements related to the feasibility of 
establishing standards of appearance for our national 
cemeteries commensurate with those of some of the finest 
cemeteries in the world.
    I think the important point on that one is that there was 
no real consistency in terms of defining a national standard, 
so to speak, that each cemetery is somewhat unique and there is 
different ways that you can have standards of excellence with 
regards to how they look and appear.
    Overall, AMVETS believes that honoring those who served 
through the NCA, as I stated, is an important part of our 
culture and history and national identity. As we have testified 
in the past, we support NCA as it seeks to develop additional 
national cemeteries, expand existing capabilities, and also to 
encourage individual States to develop State cemeteries through 
the State Cemetery Grants Program.
    Overall, we continue to recommend that Congress establish a 
5-year, $250 million National Shrine Initiative to restore and 
improve the condition and character of national cemeteries.
    One final word is that overall, you know, national 
cemeteries, the maintenance of them, it is a very expensive 
proposition. And in order to bring them up to speed and 
continuing to honor those who serve, it is not a once done 
deal. You have to continue to make investments and 
reinvestments in those initiatives.
    [The prepared statement of Mr. Hollingsworth appears on p. 
35.]
    Mr. Hall. Thank you, Mr. Hollingsworth.
    The Chair will now recognize Ms. Witter.

                   STATEMENT OF LESLEY WITTER

    Ms. Witter. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to testify before you today on 
behalf of the members of the National Funeral Directors 
Association.
    I am Lesley Witter, NFDA's Director of Political Affairs. 
The National Funeral Directors Association represents more than 
13,000 funeral homes and over 21,000 licensed funeral directors 
and embalmers in all 50 States.
    The NFDA has a great interest in veterans cemeteries as our 
members provide both funeral and burial services for our 
Nation's veterans on a daily basis. As a result, they use 
national veterans cemeteries as well as State veterans 
cemeteries often.
    In a recent survey of our members, we have received an 
almost unanimous response that our Nation's veterans cemeteries 
operate efficiently, effectively, and with much compassion for 
those being buried there as well as for their families.
    Our members have found the management and operation of 
these cemeteries to be courteous, flexible, and accommodating 
to the needs of the funeral director and the family members of 
the deceased veterans. From our members' standpoint, the 
operation and management of our veterans cemeteries is of the 
highest caliber.
    However, while most of our members are well satisfied with 
the services provided to them by veterans cemeteries, there are 
some improvements that could be made. For example, one NFDA 
member from Massachusetts explains that he is a funeral 
director in Brockton, Massachusetts, who has interments at the 
Massachusetts National Cemetery in Bourne probably 40 to 50 
times a year.
    He goes on to state that the entire staff of Bourne is 
fantastic. They are very helpful and accommodating to the 
families and the funeral director's staff. He notes that he 
especially appreciates the improvement of being able to call 
the Jefferson Barracks in Missouri on weekends to schedule 
funerals in Bourne.
    NFDA would like to note that we know of no veterans 
cemeteries that are available for burials on weekends except in 
special circumstances. In fact, weekend burials in veterans 
cemeteries appear to be a general problem for many of our 
members.
    In our dealings with the National Cemetery Administration 
on issues, problems, or questions that arise from time to time, 
our members have found them to be very responsive and eager to 
assist in any way possible to find a solution.
    Finally, Mr. Chairman, I would like to express our strong 
support for House Resolution 358, a bill that would expand and 
make permanent the Department of Veterans Affairs benefit for 
government markers for marked graves of veterans buried in 
private cemeteries.
    In addition, House Resolution 1273 which was introduced by 
Subcommittee member, Representative Berkley, that would restore 
the plot allowance and marker allowance for veterans who want 
to be buried in a private cemetery and want a non-government 
headstone or marker, but who are eligible for a free government 
headstone or marker is currently being reviewed by our Advocacy 
Committee.
    I would also like to commend the Committee on its passage 
of legislation that prohibits demonstrations at the funerals 
and burials of our fallen heroes in Afghanistan and Iraq. Our 
members very much appreciate the concern of Congress in 
protecting the privacy of these very solemn and emotional 
occasions.
    Mr. Chairman, that concludes my testimony. I hope it has 
been helpful. Thank you again for the opportunity to appear and 
present the views of the National Funeral Directors 
Association. I will be happy to answer any questions you or 
other members of the Subcommittee may have.
    [The prepared statement of Ms. Witter appears on p. 36.]
    Mr. Hall. Thank you, Ms. Witter.
    And the Chair will now recognize Colonel Webb.

              STATEMENT OF COLONEL GEORGE S. WEBB

    Colonel Webb. Thank you, Mr. Chairman and distinguished 
members. I am George Webb, Executive Director of the Kansas 
Commission on Veterans' Affairs and Chairman of the Memorial 
Affairs Committee of the National Association of State 
Directors of Veterans Affairs or NASDVA.
    On behalf of our President, Secretary John Garcia of New 
Mexico, I thank you for the opportunity to testify and present 
our views of our State Directors of Veterans Affairs from all 
50 States and our commonwealths and territories.
    Each State Director or Secretary is appointed by his or her 
Governor. And collectively we are the Nation's second largest 
provider of services to veterans. Our State Directors spend a 
total of over $4 billion of State money annually to ensure that 
veterans receive all benefits due. We run State veterans homes, 
oversee the management of State veterans cemeteries, and employ 
accredited and trained Veteran Service Officers.
    While each State's structure differs slightly, these are 
the principal responsibilities of most of us. In some States, 
the Director also oversees the process of job training and 
employment for veterans. We are on the frontline assisting 
America's veterans with the benefits that they deserve.
    The mission of the National Association of State Directors 
of Veterans Affairs is to work in collaboration with the 
Federal Government as it strives to disseminate information 
regarding all laws beneficial to veterans, their widows, and 
their children; to assist veterans and their dependents in the 
preparation and initiation of claims against the United States 
by reason of military service; and to assist veterans, widows, 
and children of veterans in establishing the privileges to 
which they are entitled.
    Our Association recognizes the great worth and merit of all 
existing veterans organizations and we assert our willingness 
and determination to cooperate with them.
    Today I would like to address the Subcommittee on State 
veterans cemeteries. Each State now has a national cemetery or 
a State veterans cemetery or more. Like others, we State 
Directors consider these cemeteries as shrines to veterans who 
helped preserve our freedom and memorials to those who 
contributed to the growth, development, and preservation of the 
United States.
    This final veteran's salute honors those who have served 
our grateful Nation, so we State Directors are committed to 
ensuring that all veterans are buried with the respect and 
dignity they deserve.
    During our Association conference in February, NASDVA 
members unanimously passed three resolutions: increase the 
burial plot allowance, increase funding for the State Veterans 
Cemetery Grant Program, and establish a State Veterans Cemetery 
Operations Grant Program.
    Briefly stated, when a State veterans cemetery project is 
approved, the VA fully funds its construction and initial 
equipment outlay. And the State then assumes operational costs 
in perpetuity.
    Mr. Chairman, Committee members, the average operational 
cost of interment in a State veterans cemetery is $2,000. And, 
of course, that differs widely by the number of burials. Yet, 
the current burial plot allowance of $300 per qualified 
interment covers only 15 percent of that cost.
    NASDVA recommends the plot allowance be increased to $1,000 
in order to offset operational costs borne by the States. The 
increase should also apply to the plot allowance for veterans 
interments in private ceremonies.
    Second, the State Veterans Cemetery Grant Program has 
greatly expanded our ability to provide gravesites for veterans 
and their eligible family members in areas where national 
cemeteries cannot fully satisfy burial needs, particularly in 
rural and remote areas.
    The program has allowed the number of State cemeteries to 
grow by nearly 40 percent over the past 5 years with a 
corresponding increase in interments.
    Currently over 40 project pre-applications are pending 
totaling $180 million. Yet, VA funding for these projects has 
remained flat at $32 million for several years. We ask that 
grant funding be increased to $50 million.
    Third, eligible States receive construction grants for 
veterans cemeteries and a limited burial plot allowance as 
discussed. Operational costs for State and national veterans 
cemeteries continue to rise. But once a State establishes a 
State veterans cemetery, there is no further source of Federal 
operational funding.
    NASDVA recommends the establishment of a Federal grant 
program to assist State veterans cemeteries with operational 
costs.
    Last year, the Congress authorized veterans cemeteries on 
Native-American tribal lands. The funding for this program is 
expected to come from the same flat $32 million appropriated 
for State veterans cemeteries.
    In addition, the VA uses a 75-mile radius calculation in 
determining where a State veterans cemetery should be built. 
States with more traffic congestion would like some 
consideration by using driving time as an additional 
determinate.
    Finally, our State Directors wish to thank the Congress for 
two bills passed last year. Preventing persons convicted of 
capital crimes from being eligible for burial in our State 
cemeteries, as well as national cemeteries, is important.
    Second, the bill passed in December, which became Public 
Law 109-454, is an important step in keeping military funerals 
dignified and respectful.
    Mr. Chairman and distinguished members, we respect the 
important work that you have done to improve benefits to 
veterans who have answered the call to serve our Nation. NASDVA 
remains dedicated to doing its part, but we urge you to be 
mindful of the increasing financial challenge that States face, 
just as you address the fiscal challenge at the Federal level.
    We remain dedicated to our partnership with the VA in the 
delivery of services and care to our Nation's veterans. This 
concludes my statement, and I am ready to answer any questions 
that you may have.
    [The prepared statement of Colonel Webb appears on p. 38.]
    Mr. Hall. Thank you, Colonel, and thank you to all of our 
witnesses.
    My first question would be to Ms. Witter. What is the 
single biggest challenge facing your members with respect to 
conducting funerals for veterans?
    Ms. Witter. We recently surveyed our members on that exact 
topic and overwhelmingly they said that because of the passage 
of the bill last year, they are not running into very many 
problems.
    However, we talked with several of our members in the 
Washington, D.C. area about the issue of timing to get the 
bodies buried in Arlington and generally speaking, our members 
refrigerate a body after it is embalmed, so we questioned 
whether that charge was then passed on to the family.
    Our members do not charge for storing a body initially in 
the first 2 weeks. But if the burial at Arlington is delayed, 
they sometimes charge $300 for refrigeration and storage if the 
body is not buried until between 2 to 6 weeks. So this expense 
is passed on to the family.
    But we have also found that generally the families are 
willing to wait for the burial at Arlington and they do not 
mind paying that extra cost.
    Mr. Hall. Thank you.
    And, Colonel Webb, could you elaborate on your comments on 
driving time criteria requirements as opposed to mileage?
    Colonel Webb. Certainly, Mr. Chairman.
    The VA uses a calculation of a 75-mile radius and the 
calculation is based on 90 percent of the veterans of America 
should be within 75 miles driving time of a national cemetery 
or a State veteran cemetery. That just sort of puts the mark on 
the wall.
    Clearly 75 miles in western Kansas is very different from 
where you are from, or Long Island, or mountainous country of 
Pennsylvania. So some of the State Directors have asked that 
the VA loosen those rules by counting driving time.
    Mr. Hall. You do not have a specific number in mind or 
formula or anything?
    Colonel Webb. No, Mr. Chairman. If we took the 75 miles and 
compared it to flatlands, you know, we are probably talking 
maybe about an hour, hour and a half driving time.
    Mr. Hall. Thank you.
    Mr. Hollingsworth, could you elaborate on any actions 
AMVETS or the other VSOs are doing to help develop or undertake 
volunteer opportunities in conjunction with our VA cemeteries?
    Mr. Hollingsworth. The door was opening, Mr. Chairman. 
Could you repeat the question?
    Mr. Hall. Yes. Can you elaborate on what AMVETS or other 
VSOs may be doing to help develop or undertake volunteer 
opportunities in conjunction with VA cemeteries?
    Mr. Hollingsworth. Not necessarily with regards to VA 
cemeteries in particular, but part of the veterans community, 
there were several laws passed several years ago to provide 
color guards and firing details where the Department of Defense 
was then able to fill that role.
    To the best of my knowledge, that is probably the biggest 
area that the Veteran Service Organizations are filling in that 
process aside from clearly obviously with regards to the budget 
process, expressing our views and estimates we believe where 
they should be funded.
    Mr. Hall. Do you think that Congress should deny veterans 
who are convicted of serious felonies from being buried in VA 
or State cemeteries?
    Mr. Hollingsworth. AMVETS currently does not have a 
position on that that I am aware of and I would have to answer 
that one for the record.
    Mr. Hall. Colonel, do you have a position on that question?
    Colonel Webb. Mr. Chairman, Kansas, and I cannot say this 
is nationwide, but Kansas has Dennis Raider incarcerated. You 
may recall that he was the BTK killer that was on the lam for a 
long time and recently apprehended. And because he is a 
veteran, he would have been eligible to be buried in one of our 
State veterans cemeteries or in a national cemetery.
    I can tell you that my Commission was very glad to see the 
law changed so that he would be excluded. And all the veterans 
organizations that I have spoken with have that same position.
    Mr. Hall. Thank you very much.
    Those are all my questions, and I will now recognize Mr. 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Ms. Witter, do you or any of the membership that you 
represent know about demonstrators who have violated the 
provisions of the Act that my colleague, Representative 
Bilirakis, was referring to earlier?
    Ms. Witter. Congressman, that is another question I asked 
in preparation for today's testimony. I asked had any of our 
members had firsthand experience and I have not received any 
reports of any veterans funerals being attended by 
demonstrators at a funeral that our members were involved in.
    So I do not have any firsthand knowledge from our members, 
but I will continue to research it and get that information to 
you whenever possible.
    Mr. Lamborn. So, in other words, you think that it is 
working successfully at this point?
    Ms. Witter. Our members indicated that it has been very 
successful. They have not had any problems.
    Mr. Lamborn. Okay. Thank you.
    And, Colonel Webb, how much variation is there among the 50 
States in either the funding or the quality of the cemeteries 
that are established at the State level?
    Colonel Webb. I would hope to say that the quality does not 
vary very much. I mean, part of what we get when the VA builds 
a cemetery for us and provides all the associated equipment for 
that is the book of standards that we are obliged to follow. 
And we consider that a good thing that we have those standards 
and then we go to our legislatures and we explain to them what 
it takes to enforce them.
    In terms of funding, it really is a matter of what it takes 
for upkeep in a particular cemetery, the size of the cemetery, 
the number of interments that occur at that cemetery. It 
depends on the newness of the cemetery versus the age.
    This year in Kansas, we have three State veterans 
cemeteries already and one on the way. We will probably have 
about 140 interments total for the year. But we have new 
cemeteries and sometimes those take a while to get mature in 
people's minds and then that is where they want to go, whereas 
in New Jersey, you may see 30 burials a day in Doyle Cemetery 
that they have.
    So I cannot give you a figure because every cemetery in 
every State is different. I apologize. But if you would like 
further information, I can see what I can do.
    Mr. Lamborn. Okay. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    I just have one question, Ms. Witter. What do you think 
could be done to improve veterans' outreach about eligibility 
and the availability of veterans' cemeteries?
    Ms. Witter. Congressman, I think I am going to have to 
respond to that in writing. I do not have any information 
available to me at the moment. But I will go back and make sure 
that I discuss it with my members, get their opinion on it, and 
I will submit it in writing.
    Mr. Hare. Thank you very much. I yield back.
    Mr. Hall. Thank you, Mr. Hare.
    Ms. Berkley or, I am sorry, Mr. Bilirakis first.
    Mr. Bilirakis. I will defer to her. No problem.
    Mr. Hall. I made a mistake. We are supposed to go from one 
side to the other.
    Mr. Bilirakis. Ms. Witter, I have a question. Your members, 
let us say a veteran is indigent or the family cannot afford a 
funeral or all the services, what happens? What do you do? 
Obviously I know that a lot of the members pay for the funeral 
out of their pockets pro bono. Tell me if this is a problem. Do 
you face it? I imagine you face it quite a bit.
    Ms. Witter. Congressman Bilirakis, it is not an issue that 
has ever been brought to my attention. I am not sure how our 
membership handles veterans who do not have the financial 
backing to pay for a funeral. I am sure there is some process. 
So what I will do is I will talk to our membership about it and 
again I will submit something in writing to you.
    Mr. Bilirakis. Yes, please get that back to me because I 
understand also that there is only a $300 benefit for a person 
that is buried in a non-veteran cemetery and I think that is a 
little low too. So we need to address that issue.
    One more question, Ms. Witter. What percentage of the 
general public chooses cremation of veterans?
    Ms. Witter. Of veterans?
    Mr. Bilirakis. Yes.
    Ms. Witter. Again, I do not have that information at hand. 
I can get that to you pretty quickly. I am not entirely sure 
how many veterans choose it. I know that now it is easier to 
get into Arlington Cemetery if cremation is the chosen method. 
So I will get the exact information for you.
    Mr. Bilirakis. I would like to get some information on that 
because I think it would be pretty high.
    But thank you very much. I appreciate it, Mr. Chairman. I 
yield back.
    Mr. Hall. Thank you, Mr. Bilirakis.
    [The information requested by Congressmen Hare and 
Bilirakis was provided in a May 17, 2007, followup letter from 
Ms. Witter, which appears on p. 46.]
    And now Ms. Berkley.
    Ms. Berkley. Thank you. Thank you, Mr. Hall.
    Mr. Hollingsworth, when I first--I guess this is directed 
to everybody, but the question will be to you--when I first 
started running for Congress back in 1998, one of the first 
groups I spoke to were my veterans groups and each one of them 
at every veterans meeting that I attended, they were concerned 
about their benefits when it came to burial. And this seemed to 
be a very big issue for the families and there were many 
stories that they shared with me.
    So in the past, when I was the Ranking Member of this 
Committee, I had introduced legislation that I have 
reintroduced and that would be House Resolution 1273. And the 
reason for that was before 1990, a veteran who was eligible to 
be buried in a national cemetery but chose to be buried in a 
private cemetery was eligible to receive reimbursement for the 
cost of the headstone or the marker in lieu of a VA provided 
headstone, a grave marker.
    In 1990, long before I came here to serve, the headstone 
and marker allowance was eliminated in the budget 
reconciliation bill. I have introduced 1273 to restore 
reimbursement to the pre-1990 levels and I am wondering if you 
have an opinion on that and whether you think that will be of 
some help to our veterans.
    Mr. Hollingsworth. Yes, ma'am.
    Ms. Berkley. The families, I should say.
    Mr. Hollingsworth. Yes, ma'am. AMVETS does have a position 
on that. We testified earlier this year during the views and 
estimates process and AMVETS fully supports several initiatives 
with regards to some of the burial benefits. Some of those are 
an increase in the plot allowance and that would be from $300 
to $745.
    In addition, the burial allowance for service-connected 
deaths was recently increased from $500 to $2,000 and I believe 
AMVETS and the Independent Budget partners would recommend an 
increase from the $2,000 to $4,100.
    Both of those figures are derived at in trying to restore 
parity to the original figure from when burial benefits first 
started.
    Last but not least, since it was mentioned here earlier, 
AMVETS also does support reimbursement for headstones for 
burials in private cemeteries.
    Ms. Berkley. Thank you very much.
    And, Ms. Witter, I would appreciate as you testified that 
your group is still reviewing the legislation, I would 
appreciate if you took back the information that you gleaned 
today and would love to have support from the Funeral Directors 
Association.
    And I yield back the balance of my time.
    Mr. Hall. Thank you, Ms. Berkley.
    And thank you to all of our witnesses on the second panel. 
Mr. Hollingsworth, Ms. Witter, and Colonel, thank you all. You 
are now free to go on with the rest of your day.
    And we will ask our last panel, the Honorable William F. 
Tuerk, Under Secretary for Memorial Affairs from the U.S. 
Department of Veterans Affairs, to come forward, please, and 
make yourself comfortable. Have some of the Capitol's best 
water. You can start whenever you are ready. You are 
recognized.

    STATEMENT OF HON. WILLIAM F. TUERK, UNDER SECRETARY FOR 
   MEMORIAL AFFAIRS, NATIONAL CEMETERY ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Tuerk. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Ranking Member, members of the 
Subcommittee, thank you for the opportunity to testify today on 
veterans cemeteries and the activities of the National Cemetery 
Administration.
    With the Committee's permission, I will offer a relatively 
brief summary statement and request that my written testimony 
be accepted by the Committee and placed in its hearing record.
    Mr. Hall. So ordered.
    Mr. Tuerk. Thank you, Mr. Chairman. I appreciate it.
    For the past year and a half, I have been privileged to 
lead the 1,500 plus men and women of NCA--men and women who 
each day, fulfill our Nation's final promise of care to 
veterans, our promise to provide final resting places of honor 
and dignity and to preserve in monuments and memorials the 
accomplishments of our Nation's heroes.
    The average age of still-surviving World War II veterans is 
now 83, and the average age of surviving Korean War veterans is 
now 75. The average age of the Vietnam generation now 
approaches 60.
    These demographic facts have led the Congress to direct--
and NCA to oversee and manage--an unprecedented expansion in 
the Nation's veterans cemeteries. This unprecedented 
expansion--the largest such expansion since the Civil War--is 
necessary if we are to meet the need for convenient, close-to-
home burial options for our older veterans, and for all of our 
veterans.
    VA's 125th national cemetery--South Florida VA National 
Cemetery, in Palm Beach County--is now in its first month of 
operation providing a convenient burial option to over 400,000 
previously-unserved veterans who reside in the South Florida 
region.
    Similarly, the opening of veterans cemeteries in four major 
cities in the past 2 years--Pittsburgh, Atlanta, Sacramento, 
and Detroit--have allowed us to expand our reach to veterans 
who had previously been unserved.
    Just 3 years ago, a burial option--that is, an active, open 
cemetery within 75 miles of one's residence--just 3 years ago 
such a burial option was available to only 75 percent of our 
Nation's veterans. Today, such an option is available to 83 
percent of the Nation's veterans. And by 2010, we will have an 
operating cemetery in proximity to 90 percent of the Nation's 
veterans.
    VA is now committed to building six new national 
cemeteries--each with initial sections open for burials by the 
end of 2008--in the regions of Bakersfield, California; 
Birmingham, Alabama; Columbia, South Carolina; Jacksonville, 
Florida; Sarasota, Florida; and Philadelphia, Pennsylvania.
    Since 2001, 22 State veteran cemeteries have opened in 17 
States, providing additional burial options for veterans living 
in less densely populated areas. Five new State veterans 
cemeteries are currently under construction--in Anderson, South 
Carolina; Shreveport, Louisiana; Radcliff, Kentucky; 
Glennville, Georgia; and Williamstown, Kentucky. We anticipate 
that several more State grant applications will be ripe for 
grant funding during the next fiscal year. This program is 
truly one of the finest examples one could find of 
collaboration between the Federal Government and the States. It 
represents, I think, an outstanding investment for veterans and 
for all the citizens we serve.
    Yes, we are expanding, and we are expanding as rapidly as 
we can--though not as rapidly as many, me included, would wish. 
That said, let me assure the members of the Subcommittee that 
even while NCA administers a program of growth that would be 
challenging for any organization to manage, we have not lost 
sight of--we will not lose sight of--properly executing our 
current responsibilities at our existing cemeteries. The people 
of NCA remain sharply focused on providing responsive, caring, 
and compassionate service at our existing cemeteries to every 
veteran and every veteran family member who has occasion to 
call on us.
    We will continue to do that for families who find 
themselves in one of life's most difficult circumstances--at 
the burial of a loved one--and we will continue to do that for 
family members--and members of the general public--who visit 
our cemeteries at times other than to attend a burial.
    In our most recent customer survey, 94 percent of 
respondents agreed that the quality of service they received at 
our existing national cemeteries was excellent. Ninety-seven 
percent stated that the overall appearance of our existing 
cemeteries is excellent. A study led by Michigan State 
University--the American Customer Satisfaction Survey--gave us 
a customer satisfaction rating of 95 out of 100. That is the 
highest score ever achieved by any organization, public or 
private, in the history of that survey.
    We intend to maintain--and improve upon--those numbers. 
Professional and caring service will remain a hallmark of NCA. 
My greatest privilege has been to witness the manner in which 
VA employees carry out their honored duty of comforting 
veterans and families during a time of grief, and operating and 
maintaining national shrines in tribute to those who served and 
sacrificed on behalf of our Nation.
    Mr. Chairman, members of the Subcommittee, thank you again 
for the opportunity to share with you an overview of our 
current activities at NCA. I look forward to working with the 
members of this Subcommittee as we jointly work to meet the 
burial needs of veterans and family members we are entrusted to 
serve.
    I would be pleased to answer any questions that you might 
have.
    [The prepared statement of Secretary Tuerk appears on p. 
39.]
    Mr. Hall. Thank you, Secretary Tuerk, and thank you for the 
work you do.
    First of all, I want to ask do you think the 170,000 
veterans within a 75-mile radius requirement for new cemeteries 
unfairly burdens rural locations; and sort of part two of the 
question, you heard before another witness suggest that the 
mileage perhaps be modified to include driving time in those 
areas where traffic or road conditions make 75 miles a longer 
time than is perhaps possible?
    Mr. Tuerk. I do not believe, Mr. Chairman, that it is 
unfair per se to rural areas. With respect to the standard that 
NCA has adopted and the United States Congress has adopted in 
enacting two statutes directing us to build cemeteries at ten 
locations that were not rural, I believe the thinking behind 
both NCA's use of that methodology and Congressional 
endorsement was to try to measure relative need, to try to 
place the dollars in locations where we could serve the most 
veterans.
    Until very recently, there were not national cemeteries in 
cities as big as Chicago, Seattle, Pittsburgh, Philadelphia, 
Detroit, Atlanta, Miami--very significant population centers 
that were not served with a burial option at all for the 
residents of those areas.
    So I think the use of a methodology that counted the number 
of veterans within proximity to a given site--what we have used 
is a 75-mile radius--and applying the resources to the places 
where we could serve the most veterans, expressed a sense by 
NCA and a sense by the Congress that we ought to do the most we 
can for the most people. And that is what is behind our current 
construction projects and our strategic goal of reaching access 
to 90 percent of the veteran population within the Nation.
    Mr. Hall. Thank you. And could you please explain the VA's 
process for selecting a location other than proximity to 
veterans, a certain number of veterans? Can citizens 
participate in the site selection process and how does that 
public input occur?
    Mr. Tuerk. What we have used and what the Congress has 
heretofore used has relied strictly on the numbers. We 
contracted in 1999 with an outside consultant to do an analysis 
of every location in the United States that did not currently 
have a cemetery and we asked the contractor to analyze census 
data to tell us how many people in proximity to that site were 
not served. We ranked the cities in question, in order--
starting with those with the greatest number that were 
unserved--and ranking down in order.
    When the Congress in both the ``Millennium Act'' and Public 
Law 108-109 directed us where to devote our resources, it took 
the names of the cities from the list in the order that our 
contractor had ranked them, and that contractor ranked them 
strictly on the basis of the number of veterans in proximity to 
the given site.
    Mr. Hall. Thank you, sir.
    And in the interest of our moving along briskly, I will 
turn to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. I will try to be 
brisk.
    Mr. Tuerk, how often does the NCA use donated land or does 
it ever for building a national cemetery?
    Mr. Tuerk. Well, let me cite the most recent projects that 
we are engaged in. As we speak right now, we are acquiring land 
at the six sites that I mentioned in my testimony: Bakersfield, 
Birmingham, Columbia, Jacksonville, Philadelphia, and Sarasota. 
In two of those six sites, we have been offered land by 
donation--one from a private landowner in Bakersfield, one by 
the Department of the Army from Fort Jackson to serve the 
Columbia area. In two of those six, then, we are getting 
donations. At the other four sites, we are purchasing.
    Mr. Lamborn. Okay. Thank you. Moving along, would you say 
that you did in the 1999 evaluation? When you looked at 
unserved veterans areas, did you take into account State 
cemeteries?
    Mr. Tuerk. Yes, we do. When we look at a given site to 
determine whether that site is currently served with a burial 
option, we take into account the presence of both a national 
cemetery in proximity and a State cemetery in proximity.
    Mr. Lamborn. Okay. Thank you. And, lastly, Mr. 
Hollingsworth testified that one thing that his organization is 
concerned about is how many additional cemeteries would be 
required to ensure that 90 percent of veterans live within 75 
miles of a national cemetery. Do you happen to know what that 
number is?
    Mr. Tuerk. Yes, I do, sir. In 2010, when we have opened the 
six cemeteries that are mandated by Public Law 108-109 and the 
additional State cemeteries that we anticipate we will be ripe 
for grant funding before that time are opened, at that point in 
time, we will have reached the 90 percent strategic goal that 
we are shooting for right now.
    I would also add that we are not necessarily proposing to 
stop at that point. My written testimony, and this comes back 
to an issue that was raised by the Chairman, my written 
testimony indicates that I have already contracted for a 
program analysis of the methodology that we currently use.
    Among the things that the contractor is going to analyze 
for us will be the utility of 170,000 threshold, the validity 
of the 75-mile radius, whether we ought to take into account 
geographic factors, such as traffic congestion, travel over 
mountains, that sort of thing. That contractor will take into 
account all of the elements that go into decisionmaking now, 
and at that point, we will be prepared to revisit the question 
of where we ought to go after 2010.
    Mr. Lamborn. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mr. Hare.
    Mr. Hare. Thank you.
    Mr. Secretary, I know my office has been in contact with 
you about the Rock Island Arsenal in terms of enclosures, and I 
know we have votes. So with your indulgence I would like to at 
some point maybe sit down and have the opportunity to converse 
with you about it.
    Let me just tell you what I am seeing anyway. And I 
understand, but from a lot of the funerals, at the least the 
cemetery in my district that I see, very small committal area, 
extremely tough weather conditions, either hot in the summer, 
very cold for the family. The color guard which are obviously 
World War II vets, a lot of them Korean vets, awfully difficult 
for them standing out in weather like that.
    And the other problem is, it seems to me, and I realize I 
was talking to some of the people, there is almost like a very 
hurried-up atmosphere. And I think this is the time when people 
are really wanting to maybe have a little bit of time. You 
cannot do that when you are shivering in the cold or having 
somebody fan you so you do not pass out in the heat.
    And the other concern that I have and I want to talk to you 
about is the way it is, at least at our cemetery, when the 
committal service is completed and the one family leaves, there 
is another funeral waiting to drive into the driveway. They can 
see the VA people coming in, two of them loading the casket 
onto the back of a pickup truck or something.
    It does not appear to me to be the most gracious way, if 
you will, of seeing that happen. I mean, there should be a way, 
I think, that the family is not exposed to that.
    So I would like to, with your okay at some point, and I 
appreciate the time you spent with Amanda on it, and I know 
there are concerns, but, again, I would like to explore the 
possibility with you because my real concern is I have seen 
funeral directors or ministers looking at their watches like 
how fast can we get out of this place because of the wind. And 
it just appears to me to be very disrespectful for the family. 
And, I would very much like to have the opportunity to talk to 
you about that.
    Mr. Tuerk. I could not agree with you more that we have to 
show proper respect. We have to conduct dignified services, and 
looking at one's watch does not meet that standard.
    I would be delighted to visit your cemetery. I grew up just 
about 80 miles down I-74 from Rock Island National Cemetery.
    Mr. Hare. Oh, great.
    Mr. Tuerk. I know the weather well. We have tried, I will 
tell you, we have tried enclosed committal shelters in areas 
where the weather is even worse--Fort Snelling National 
Cemetery in Minneapolis. We are tearing them down. They were an 
abysmal failure. We have tried in some other places to have 
removable panels--both wood and glass. There have been 
difficulties.
    But I am not close-minded to this thought. It certainly 
passes the ``common-sense'' test, it seems to me. I would be 
happy to spend time with you, at your cemetery in your district 
reviewing the situation out there. Certainly, we can address 
the vehicles that are used, and the way the staff is comporting 
themselves.
    We are expanding significantly at Rock Island National 
Cemetery. We are going to have a new committal shelter. That 
should spread things out--the way Mr. Metzler talked about--you 
do not want committal services in proximity to one another.
    Mr. Hare. Correct.
    Mr. Tuerk. That might also give us an opportunity to be a 
little bit less hurried in moving through the schedule.
    But, I will tell you we pride ourselves in our ability to 
provide respectful, dignified committal services even at our 
``high volume'' cemeteries. In some of our cemeteries, we bury 
as many as 8,000 persons per year. That is 175 a week, 
sometimes 30 a day. That is never reason to do committal less 
than respectfully--to do them hurriedly, to do them without 
proper dignity--and we never accept the volume of burials as an 
excuse for inappropriate staff behavior.
    We have engineered our systems to prevent that sort of 
perception coming across. And I think we have generally 
succeeded--as reflected in our customer satisfaction scores. 
But if there are problems in Rock Island National Cemetery, we 
will attend to them, sir.
    Mr. Hare. Thank you, Mr. Secretary. Let me just quickly 
close by saying it is a beautiful cemetery and the staff there 
are very decent people. I think it is more logistically in 
terms of the way the drive is. But I would love to have you 
come out and we could spend a few hours and just sit down and 
talk and see if we can work something out.
    Mr. Hall. Thank you, Mr. Hare. Thank you, Mr. Tuerk.
    And, Ms. Berkley, if perhaps you would agree to come back 
after votes.
    Ms. Berkley. Thirty seconds. I am not coming back.
    Mr. Hall. Thirty seconds? Okay.
    Ms. Berkley. First of all, it is a pleasure to see you 
again. The last time I saw you was when we toured the Boulder 
City Cemetery and I would urge my colleague to bring you over 
to his cemetery as well.
    Mr. Tuerk. You were a gracious hostess, Ms. Berkley.
    Ms. Berkley. Thank you. My pleasure. We said with the 
Wiccan symbol, as you know, it was a person from Nevada that 
led the charge so that her husband could get that symbol on his 
gravestone. We okay with that now?
    Mr. Tuerk. We are set.
    Ms. Berkley. It is recognized?
    Mr. Tuerk. It is recognized.
    Ms. Berkley. Do you do it as a matter of course?
    Mr. Tuerk. It is on our list. Any person of that religious 
persuasion who requests that emblem will now get it on his or 
her headstone in a VA national cemetery.
    Ms. Berkley. You are a good man. Thank you.
    Mr. Hall. Thank you, Mr. Secretary. I just request, if we 
may, that if members have questions they want to submit in 
writing to you that you would respond to the Committee at a 
later date with your answers.
    Now we are going to go. They are holding a vote open on the 
floor for us. So thank you again for your testimony and you are 
excused.
    The hearing is now adjourned.
    Mr. Tuerk. Thank you, Mr. Chairman.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman
       Subcommittee on Disability Assistance and Memorial Affairs
    Thank you all for coming. Today's hearing, ``Veterans Cemeteries: 
Honoring Those Who Served,'' will provide this Subcommittee an 
opportunity to receive an update on the cemeteries that hold the 
remains of our veterans.
    As some may know, veterans, who have served in this country's Armed 
Services, are buried in cemeteries operated by the States, VA, the 
Department of Interior, Arlington National Cemetery, American Battle 
Monuments Commission and private industry.
    From all reports, it appears that VA's National Cemetery 
Administration is doing a good job running the cemeteries under its 
jurisdiction. However, I do have some concerns, which I hope will be 
addressed today. First, I want the VA to expound upon its standard for 
creating new national cemeteries. Is the current standard adequate for 
both urban and rural locations? And, does the VA provide opportunity 
for public input during the new cemetery selection process? In 
addition, I want to be updated on the current status of the National 
Shrine Commitment.
    Finally, I want to know why it took close to a decade for the VA to 
display and recognize the Wiccan emblem. As most are aware, the 
military has long allowed Wiccans to practice their faith on military 
installations, but the VA, only recently, after litigation, started to 
allow the Wiccan symbol on gravestones. I would like to be assured 
today that the statements made by President Bush in 1999 had nothing to 
do with the VA refusing to recognize the Wiccan symbol.
    Also, with respect to Arlington National Cemetery, I wish every 
cemetery could look as pristine and immaculate as the grounds at 
Arlington. However, this attractiveness does come at a cost. It has 
been reported that those waiting to be buried in Arlington face a 
backlog. I don't think veterans who have sacrificed so much for our 
country should have to wait to be buried. I am interested in finding 
out about the burial process at Arlington and whether individuals do 
indeed face lengthy delays. I would also like the Superintendent to 
touch upon the recent burial of Jack Valenti. I want to know why a 
veteran of his stature--over 50 combat missions during World War II--
needed a waiver to be buried in Arlington.
    Next, we will hear from a representative of the National Park 
Service, which is responsible for operating several Civil War-era 
cemeteries. It has come to my attention that some of those cemeteries 
are not being maintained at an acceptable standard worthy of those who 
have fought for this country. I would like to know if these reports are 
an aberration or signs of a pattern. If it is a pattern, please tell 
the Committee what it can do to improve the current situation.
    We will also hear from the American Battle Monuments Commission 
(ABMC), which very few Americans even know exists or what it is that 
they actually do. I am interested in learning about their efforts to 
educate people about Americans interred overseas. I also would like to 
note the significance of having the ABMC testify on the 62nd 
anniversary of V-E Day (Victory in Europe Day).
    In closing, I would just like to say that I believe we must 
maintain our promise to those who have done so much for our country. 
Providing them a well-maintained and respectable final resting spot is 
the least we can do.

                                 <F-dash>
   Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member
       Subcommittee on Disability Assistance and Memorial Affairs
    Thank you, Mr. Chairman, for holding this hearing on America's 
national cemeteries.
    I thank our witnesses in advance for their testimony today and for 
their dedication to serving America's veterans and their families.
    Properly honoring a deceased veteran is one of our most solemn and 
indeed sacred obligations.
    These patriots have earned honored repose in a national shrine. 
They and their families are due the tribute and thanks of a grateful 
Nation.
    As members of the greatest generation pass from our presence, we 
are seeing increased demand on all of our national cemeteries. VA 
estimates that interments in national cemeteries will rise from the 
current level of 2.8 million to 3.2 million by 2012.
    Mr. Chairman, it is for that reason especially that I thank you for 
your leadership in helping to pass H.R. 1660 out of this Subcommittee 2 
weeks ago. This bill would establish a national cemetery in southern 
Colorado and greatly benefit those veterans and families in this fast-
growing area.
    To ensure that national cemeteries under its jurisdiction, both new 
and old, are maintained as national shrines, VA is at work fulfilling 
its excellent National Shrine Commitment. That effort, however, is 
still years from completion.
    That is why in the Fiscal Year 2008 Republican Views and Estimates, 
we recommended an additional $9 million over the Administration's 
$166.8 million request for operations and maintenance at VA's National 
Cemetery Administration.
    Further, Mr. Chairman, we recommended an additional $5 million for 
minor construction.
    We also recommended an additional $60 million to accelerate VA's 5-
year strategic plan to fund national cemetery gravesite expansion and 
shrine completion: we should not wait for years to ensure that the 
resting places for these patriots reflects our Nation's recognition of 
their service and sacrifice.
    It is my understanding that most of our national cemeteries are 
kept in excellent condition; certainly my own experience of the Fort 
Logan National Cemetery reinforces this perception.
    I am pleased to note that we have today a representative of the 
American Battle Monuments Commission. The Commission's standards are 
legendary, and I hope to soon visit one or more of their cemeteries for 
our war dead.
    Disappointing exceptions to these high standards do exist, however.
    Andersonville National Cemetery in Andersonville, Georgia, the site 
of the notorious Confederate prisoner of war camp, is one of 13 
national cemeteries run by the National Park Service. Andersonville is 
one of two run by the Park Service that currently inters veterans.
    My staff is now passing out photos that depict the deteriorating 
condition of gravestones and construction at Andersonville. I look 
forward to learning more about operations and maintenance at this and 
other Park Service cemeteries, as well as cemeteries run by VA and the 
ABMC.
    Mr. Chairman, if it is within the capacity of Congress to help 
ensure that any national cemetery now deficient rises to the highest 
standards, we must not delay in that work.
    Thank you, Mr. Chairman, and I yield back.

                                 <F-dash>
               Prepared Statement of John C. Metzler, Jr.
  Superintendent, Arlington National Cemetery, Department of the Army
         U.S. Department of Defense, and also on behalf of the
            Soldiers' and Airmen's Home National Cemeteries
    Mr. Chairman and distinguished members of the Subcommittee:
INTRODUCTION
    Thank you for the opportunity to testify before this Subcommittee 
in support of the Department of the Army's Cemeterial Expenses program. 
I am testifying on behalf of the Secretary of the Army, who is 
responsible for operating and maintaining Arlington and Soldiers' and 
Airmen's Home National Cemeteries, as well as making necessary capital 
improvements to ensure their long-term viability.
    Arlington National Cemetery is the Nation's premier military 
cemetery. It is an honor to represent this cemetery and the Soldiers' 
and Airmen's Home National Cemetery. On behalf of these two cemeteries 
and the Department of the Army, I would like to express our 
appreciation for the support that Congress has provided over the years.
FISCAL YEAR 2008 BUDGET OVERVIEW
    The FY 2008 budget is $26,892,000, which is $342,000 more than the 
FY 2007 request of $26,550,000. The FY 2008 budget will support 
Arlington National Cemetery's efforts to improve its infrastructure and 
continue working toward implementation of its Ten-year Capital 
Investment Plan. The funds requested are adequate to support the work 
force, assure adequate maintenance of buildings and grounds, acquire 
necessary supplies and equipment, and provide the standards of service 
expected at Arlington and Soldiers' and Airmen's Home National 
Cemeteries. It should be noted that operation and maintenance costs are 
increasing as the cemetery expands and improvements are made in the 
overall appearance of this national shrine.
GRAVESITE DEVELOPMENT
    The budget also includes funds to pursue expansion efforts needed 
to ensure that Arlington National Cemetery remains an active burial 
place for servicemen and women into the next century. The following 
table displays how long gravesites will remain available in both 
developed and undeveloped areas that are currently part of the 
Cemetery. It is presented to illustrate the importance of proceeding 
with expansion projects in a timely manner so that there will be no 
disruption in services for deceased veterans and to relieve significant 
crowding of funeral services. Significant crowding is already occurring 
due to the ever-shrinking land available in the Cemetery. This is 
compromising the dignity of funerals by distracting families at ongoing 
nearby services, as well as disruptions caused by daily maintenance 
required to be performed at new gravesites.
    Note that the gravesite capacity shown in the table for the 
undeveloped area includes Project 90 and utility relocations, but does 
not include the Millennium Project. Nor does the table reflect future 
land expansion projects programmed in the Ten-year Capital Investment 
Plan, such as the Navy Annex and Ft. Myer parking lot, which are 
currently authorized and addressed in the Concept Land Utilization 
Plan.


----------------------------------------------------------------------------------------------------------------
                     Arlington National Cemetery Gravesite Capacity as of September 30, 2006
-----------------------------------------------------------------------------------------------------------------
                                    Total                    Year         Gravesite
 Gravesite Capacity-- Developed     Grave-   Gravesites    Available     Capacity--    Total Grave-  Year Total
              Areas                 sites     Currently    Capacity     Undevel- oped      site       Capacity
                                     Used     Available    Exhausted        Area         Capacity     Exhausted
----------------------------------------------------------------------------------------------------------------
  243,373                          221,453     21, 920          2015          36,000      279,373          2030
----------------------------------------------------------------------------------------------------------------


    Project 90 Land Development. As the table illustrates, capacity in 
the currently developed area of Arlington National Cemetery is becoming 
more concentrated and will be exhausted by 2015. In order to extend the 
Cemetery's useful life to 2030, it was necessary to develop the 40 
acres of open land within its current boundaries known as Project 90. 
This involved the development of gravesite areas, roads, utilities and 
a boundary wall with niches for the placement of cremated remains. 
Approximately 26,000 additional gravesites and 5,000 niches will be 
provided when the development is complete.
    Phase I of the Project 90 land development effort, which consisted 
of grading the site, relocating utilities, constructing roads and 
landscaping gravesite areas, is complete. Phase II primarily entails 
construction of a new boundary niche wall that will hold the ashes of 
cremated remains on the inside of the wall. The niches and covers will 
be the same size and resemble those currently used at the existing 
Columbarium Complex. Construction of Phase II is scheduled to begin in 
FY 2007 and be completed in FY 2009, using prior year appropriations. 
At the current rate of niche use (without Phase II of Project 90), it 
is estimated that the additional niches will be needed by the year 
2012.
    Utility Relocations. Arlington County is planning to replace an 
aging sanitary sewer line that runs through Arlington National Cemetery 
with a new line known as the Potomac Interceptor. The presence of the 
existing sewer line prevents burials in approximately 10 acres of land 
along Eisenhower Drive. The new sewer line would be placed directly 
under the existing roadway, and if the other utilities (i.e., electric, 
telephone and water) that run through that area are also relocated, it 
is estimated that approximately 8 to 10 thousand more gravesites could 
be developed. As directed in House Report 109-464 accompanying the FY 
2007 appropriations bill, a report is being prepared to determine what 
needs to be done to relocate the utilities so that the land can be 
developed for gravesites. Toward that end, $1,700,000 is included in 
the FY 2008 budget to move the Federally owned water line.
    Phase IV B Columbarium Complex. As the option for cremation becomes 
more acceptable and because eligibility in the Columbarium at Arlington 
National Cemetery is less restrictive than eligibility for in-ground 
interment, use of the Columbarium will increase. The recently completed 
Phase IV A court has 7,672 niches and Phase IV B will have about the 
same number. Construction of the next court began in Fiscal Year 2006 
to be sure that niches will be available when required.
    Ten-year Capital Investment Plan. On February 5, 2007, the most 
recent update of the plan that identifies the Cemetery's new 
construction, major rehabilitation, major maintenance and study 
proposals for the next 10 years was provided to the House and Senate 
Appropriations Subcommittees on Military Construction, Veterans 
Affairs, and Related Agencies. It addresses projects identified in the 
1998 Master Plan and other projects needed to ensure that the Cemetery 
remains open for burials into the twenty-second century. It also serves 
as a guide for annually recurring maintenance needs of the Cemetery.
    The FY 2008 budget includes $75,000 to continue developing and 
refining this multi-year plan for funding projects in a technically 
sound and financially efficient manner. This is a living document that 
will be periodically updated to reflect the latest information, 
identify new requirements and improve the quality of cost estimates. It 
is an essential tool in developing a credible long-term investment 
strategy and the budget recommendations that emanate from it.
    Concept Land Utilization Plan. We have also developed a plan 
(transmitted to the House and Senate Appropriations Subcommittees on 
Military Construction, Veterans Affairs, and Related Agencies on 
October 27, 2000) that identifies the requirements for developing 
adjacent land for future expansion. The first site to be developed is 
the Millennium Project, which consists of the development of 36 acres 
of land into gravesite areas, roads, utilities, columbarium walls, and 
a boundary wall with niches for the placement of cremated remains. 
Approximately 19,000 additional gravesites and 26,000 niches will be 
provided when development is complete. Actual yields could change 
significantly, depending upon final design. The Millennium Project 
would extend the useful life of the Cemetery beyond 2025 to somewhere 
between 2038 and 2047, depending upon final implementation.
    The Millennium Project consists of three parcels of land. The first 
parcel (7 acres) is land within the boundaries of Arlington National 
Cemetery made available by demolition of the old warehouse buildings. 
The second parcel (12 acres) was transferred to the Cemetery from the 
National Park Service on January 28, 2002, pursuant to the authority 
contained in Section 2863 of Public Law 107-107, the National Defense 
Authorization Act for FY 2002. The final piece of the Millennium 
Project is a 13-acre parcel of adjacent land formerly owned by Fort 
Myer (picnic area), which was transferred to the Cemetery on January 
21, 2004, in accordance with Section 2882 of the FY 2000 Defense 
Authorization Act (Public Law 106-65). The first phase of construction 
is anticipated to start in FY 2007.
    The Concept Land Utilization Plan also includes the Navy Annex and 
Fort Myer parking lot, which would extend the Cemetery's life to 
somewhere between 2054 and 2068, again depending upon how these sites 
are ultimately developed. Increasing capacity beyond this timeframe 
will require additional land expansion for gravesites or more 
columbarium niches.
AMPHITHEATER RENOVATION/TOMB REPLACEMENT
    The Memorial Amphitheater reception building has recently been 
renovated to address waterproofing needs. Problems with the aging 
structure included water damage throughout the building, interior 
drainage system, flooding in the women's restroom and lower level 
chapel area. Renovation addressed water damage throughout the structure 
and improving the general appearance of the building.
    The Tomb of the Unknown Soldier at Arlington National Cemetery has 
been deteriorating. Replacement options are being considered as part of 
the National Historic Preservation Act consultation process. At the 
conclusion of that process, we will know what work needs to be done, 
when it will need to be done and how much it will cost. We will include 
any funding needs associated with the replacement in future budgets.
FUNERALS
    In FY 2006, an all time record was set with 4,095 interments and 
2,580 inurnments, of which 103 were related to the War on Terrorism. In 
FY 2007, we estimate there will be 4,084 interments and 2,600 
inurnments. Looking ahead to FY 2008, we estimate there will be 4,084 
interments and 2,600 inurnments.
CEREMONIES AND VISITATION
    Millions of visitors, both foreign and American, come to Arlington 
to view the Cemetery and participate in ceremonial events. During FY 
2006, about 3,400 ceremonies were conducted, with the President of the 
United States attending the ceremonies on Veterans Day and Memorial 
Day.
    During FY 2006, Arlington National Cemetery accommodated 
approximately 4 million visitors, making it one of the most visited 
historic sites in the National Capitol region. A study conducted in the 
1998/1999 timeframe confirmed this estimate. A customer survey system 
has been designed and will be implemented in conjunction with the 
Cemetery's overall automation plan and will be used to collect, enter 
and analyze the survey data.
    Mr. Chairman, this concludes my testimony. I will be pleased to 
respond to questions from the Subcommittee.

                                 <F-dash>
                   Prepared Statement of Fred Boyles
   Superintendent, Andersonville National Historic Site and Cemetery
         National Park Service, U.S. Department of the Interior
    I wish to thank the Committee for the opportunity to appear today 
to discuss the national cemeteries that are managed by the National 
Park Service. It is a great honor to protect the memories of those who 
have served our country and to interpret the conflicts in which they 
served.
    The National Park Service (NPS) protects and manages 14 of our 
Nation's national cemeteries. With the exception of Andrew Johnson 
National Cemetery and Custer National Cemetery at Little Bighorn 
Battlefield, all of the cemeteries that the NPS manages date to the 
Civil War. Most of these cemeteries are located within park units that 
tell the story of the Civil War campaign or conflict in which the 
interred soldiers served. A list of all NPS national cemeteries and the 
sites with which they are associated is included at the end of this 
testimony.
    Many of the Civil War national cemeteries were established soon 
after the battle ended. In some, such as Yorktown National Cemetery, 
1,434 of the 2,183 soldiers interred were unidentified, a reminder of 
the scale of brutality and loss suffered by soldiers and families 
during this war between the American States. In the late 19th and early 
20th centuries, Civil War veterans and their families began to pay 
tribute to their fallen comrades by erecting monuments and memorials. 
Beginning in 1933, many of these cemeteries, with their monuments and 
memorials, were transferred to the National Park Service as part of the 
national battlefields, national historic sites, and national military 
parks that interpret the campaigns, conflicts, and ordeals that the 
soldiers endured.
    Two of the national cemeteries within the National Park Service are 
still open to veterans for burial. They are Andersonville National 
Cemetery located in southwest Georgia and Andrew Johnson National 
Cemetery located in east Tennessee. In 2006, Andersonville buried 161 
veterans and their dependents and Andrew Johnson buried 67. As of 
January 2007, Andrew Johnson had approximately 457 grave spaces 
available and Andersonville had 6,669 grave spaces available for future 
gravesites. Both of these cemeteries follow the same rules and 
regulations for burials that apply to cemeteries administered by the 
Department of Veterans Affairs (VA).
    Cemeteries that are more than a century old require constant 
attention. Over the past 5 years, the NPS has devoted more than $1 
million in project funds to repair stone walls, headstones, monuments, 
and walkways. Examples of projects completed with these funds include 
$675,000 to repoint and repair cemetery walls at Andersonville, 
Battleground, Fort Donelson, and Fredericksburg National Cemeteries; 
$145,000 to realign and maintain headstones at Gettysburg, Stones 
River, and Vicksburg National Cemeteries; and $118,000 to repair 
sidewalks at Andrew Johnson National Cemetery.
    In addition to these projects, each unit of the National Park 
Service with a national cemetery also has maintenance staff who 
dedicate at least part of their time to maintaining headstones and 
grounds. In FY 2005, the NPS's National Center for Preservation 
Technology and Training (Center) delivered nine classes on cemetery 
preservation to 300 employees of the NPS, an effort to increase the 
technical skills of our maintenance employees and managers responsible 
for these sacred places. The Center has also partnered with the VA's 
National Cemetery Administration on a multi-year project to test 
headstone cleaning agents.
    While we have devoted funds and employees to cemetery maintenance, 
as is often the case with historic resources, much remains to be done. 
We are working closely with the VA to upgrade our cemeteries to the 
conditions set forth in their recently updated ``Cemetery Standards of 
Appearance.'' In 2006, the Department appointed me to serve as an ex-
officio member of the VA's National Cemetery Advisory Committee. I am 
working closely with the VA to help NPS cemeteries achieve VA standards 
and to coordinate the efforts of the two entities.
    Once again, I thank the Committee for allowing me to present this 
testimony on this issue and would be happy to answer any questions 
members of the Committee may have.
National Cemeteries and Associated National Park System Units
    Andersonville National Cemetery at Andersonville National Historic 
Site;
    Andrew Johnson National Cemetery at Andrew Johnson National 
Historic Site;
    Antietam National Cemetery at Antietam National Battlefield;
    Battleground National Cemetery at Rock Creek Park;
    Chalmette National Cemetery at Jean Lafitte National Historical 
Park and Preserve;
    Custer National Cemetery at Little Bighorn National Battlefield;
    Fort Donelson National Cemetery at Fort Donelson National 
Battlefield;
    Fredericksburg National Cemetery at Fredericksburg and Spotsylvania 
National Military Park;
    Gettysburg National Cemetery at Gettysburg National Military Park;
    Poplar Grove National Cemetery at Petersburg National Battlefield;
    Shiloh National Cemetery at Shiloh National Military Park;
    Stones River National Cemetery at Stones River National 
Battlefield;
    Vicksburg National Cemetery at Vicksburg National Military Park; 
and
    Yorktown National Battlefield at Colonial National Historical Park.

                                 <F-dash>
 Prepared Statement of Brigadier General John W. Nicholson, USA (Ret.)
            Secretary, American Battle Monuments Commission
    Mr. Chairman and Members of the Subcommittee:
    I open my statement with the words of Harry Truman:

          ``Our debt to the heroic men and valiant women in the service 
        of our country can never be repaid. They have earned our 
        undying gratitude. Americans will never forget their 
        sacrifices.''

    When visitors approach the new Normandy American Cemetery Visitor 
Center that we will dedicate on June 6th, these are the first words 
they will read. The statement mirrors the mission of the American 
Battle Monuments Commission, which is to honor and commemorate the 
service, achievements and sacrifice of America's Armed Forces.
    Our fiscal year 2008 appropriation request for $53.3 million 
enables us to continue that mission. It funds the Commission's Salaries 
and Expenses Account as well as our Foreign Currency Fluctuation 
Account.
    For our Salaries and Expenses Account, we request $42.1 million to 
support the Commission's requirements for personnel costs, service 
fees, scheduled maintenance and repairs, supplies, materials, spare 
parts, equipment replacement, and capital improvement.
    Our request maintains staffing levels at 404 Full-Time Equivalent 
(FTE) positions and $1.6 million for security enhancements to open and 
protect the Normandy Visitor Center, its employees and visitors. These 
security enhancements are required by the Regional Security Office of 
the U.S. Embassy in Paris. We have also included $1.4 million to 
support annual operations at the Visitor Center. FY 2008 funding 
provides the first full-year operating costs.
    Our ongoing worldwide ABMC challenge is to sustain the high 
standards of excellence we have set in maintaining our commemorative 
sites as shrines to America's War Dead, while continuing to do a better 
job of telling the story of those we honor and persuading millions more 
people of all nationalities to see these splendid sites, which reflect 
the values of our United States of America.
    For our Foreign Currency Fluctuation Account, we request $11.2 
million to replenish the funds needed to defray losses experienced due 
to currency fluctuation, so we can maintain our buying power for 
services and materials to operate and sustain our commemorative sites 
in the European and Mediterranean regions.
    ABMC has struggled with maintaining our purchasing power over the 
years; in 2005 we needed a special foreign currency appropriation to do 
so. For FY 08, we propose a change in our approach to funding the 
Foreign Currency Fluctuation Account. New appropriation language 
requests an indefinite appropriation to supply ``such sums'' as may be 
necessary to maintain buying power against the European Euro, the 
British Pound and other currencies. With this legislation, the Congress 
could use the ``such sums'' language proposal to re-estimate our 
foreign currency requirements, if needed, during the year.
    Foreign currency is very important to ABMC. As noted by the GAO, 
over 70% of ABMC's budget is paid in euros or pounds. The volatility of 
exchange rates, combined with a weakening dollar, has increased the 
real cost of our ABMC mission and made it more difficult to plan and 
budget as effectively as we would like. An indefinite appropriation 
would remove some foreign currency vagaries from our budget preparation 
and execution.
    For example, we began the FY 08 budget process a year ago, which 
was 2 years before we will actually begin to purchase foreign currency 
to pay our staff and suppliers abroad. Exchange rates can change 
significantly over 2 years. The ``such sums'' appropriations language 
would enable the Congress to remove that uncertainty. On May 1, 2006, 1 
European Euro cost 1.2639 U.S. Dollars. On April 30, 2007, 1 European 
Euro cost 1.36600 U.S. Dollars, an 8% decrease in purchasing power. The 
``such sums'' language would protect our purchasing power against such 
drops.
    We would continue to work with OMB, GAO and the Congressional 
staffs in choosing an appropriate currency rate for our budget 
submissions. However, the Congress by incorporating the ``such sums'' 
flexibility could prevent the situation where the foreign currency 
fluctuation is the determining factor in selecting which activities or 
projects we can afford to pursue. In other words, without ``such sums'' 
authorization, a decrease in the value of the U.S. Dollar vis-a-vis the 
European Euro or British Pound could necessitate a halt to vital 
maintenance projects in order to pay salaries or other expenses. 
Allowing us to focus on our mission is the real pay-off of this change 
in approach to foreign currency fluctuations.
    Our facilities, most constructed following World War I and World 
War II, have aged considerably. Over time, deterioration accelerates, 
and the costs of materials, labor, and utilities increase around the 
world. We are allocating $3 million toward high-priority engineering 
projects specifically designed to protect the American people's 
investment in the commemorative sites for which we are responsible. 
This funding will be used to perform periodic maintenance and to 
correct deficiencies within our infrastructure.
    Since 2002, the Commission has been in the process of designing and 
constructing a visitor center at the Normandy American Cemetery in 
France. The center will tell the story of the 9,387 American soldiers 
buried at Normandy and the 1,557 missing in action memorialized there. 
Construction is nearly complete and we will dedicate the new center 4 
weeks from tomorrow, on June 6, 2007, the 63rd anniversary of the D-Day 
landings.
    Our challenge is to sustain the high standards of excellence we 
have set in maintaining our commemorative sites as shrines to America's 
War Dead. Concurrently, we are doing a better job of telling the story 
of these uniquely splendid cemeteries and memorials. They inspire 
patriotism, evoke gratitude, and teach lessons of history to all who 
visit.
    We are grateful for the support we receive from the House. The 
trust you place in us and your understanding of our operational needs 
ensures that we have sufficient resources, when we need them, to 
sustain our operations.
    I would like to close by introducing the members of my staff that 
accompanied me today:

    <bullet>  Brigadier General William Leszczynski, Jr., U.S. Army 
(Retired), Executive Director and Chief Operating Officer;
    <bullet>  Guy Giancarlo, Chief Financial Officer;
    <bullet>  Jeannie Faure, Budget Officer; and
    <bullet>  Tom Sole, Director of Engineering and Maintenance.

    Thank you, Mr. Chairman. This concludes my opening statement. I 
will be pleased to respond to your questions.

                                 <F-dash>
              Prepared Statement of Kimo S. Hollingsworth
       National Legislative Director, American Veterans (AMVETS)
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to appear today to offer testimony on behalf of 
American Veterans (AMVETS) regarding the Department of Veterans Affairs 
National Cemetery Administration.
    The National Cemetery Administration (NCA) is a unique organization 
within the Department of Veterans Affairs (VA). While the NCA provides 
a direct benefit to veterans for service to this Nation, the 
stakeholders of VA burial programs are varied, diverse and many. The 
NCA transcends the issue of veterans' benefits--VA and State-sponsored 
VA cemeteries define America's past, present and future. These final 
resting places are filled with the history of this great Nation and are 
truly national shrines.
    Mr. Chairman, Public Law 106-117 required VA to contract for an 
independent study on improvements to veterans' cemeteries. Overall, VA 
provided this Committee three volumes as part of the Study on 
Improvements to Veterans Cemeteries.
    The Future Burial Needs report (volume 1) provided an assessment of 
the number of additional cemeteries that will be required to ensure 
that 90 percent of veterans live within 75 miles of a national cemetery 
beginning in 2005 and projecting out to 2020. In addition, the report 
identified those areas in the United States with the greatest 
concentration of veterans whose burial needs are not served by a 
national cemetery, as well as an estimate of the costs to construct, 
staff and equip a new cemetery.
    The National Shrine Commitment--Condition Facility Assessment 
report (volume 2) provided the first independent, systemwide 
comprehensive review of the conditions at 119 national cemeteries. The 
study reviewed each cemetery and made recommendations for projects 
based on cemetery age, topography, space and burial options. 
Approximately 13 cemetery specific elements and over 60 specific 
features were evaluated for each cemetery. The study identified over 
900 projects with an estimated cost of $280 million. Some of these 
projects have received funding and some have been completed. Many of 
the projects and repairs will require continued attention as the care 
and maintenance of cemetery grounds and facilities requires continuing 
efforts.
    The Cemetery Standards of Appearance report (volume 3) addressed 
the requirements related to the feasibility of establishing standards 
of appearance for our national cemeteries commensurate with those of 
the finest cemeteries in the world, as well as the use of upright 
headstones and flat grave markers in national cemeteries. Overall, this 
volume did not find any ``single cemetery that qualifies for 
distinction on elements of appearance.'' The study also recommended a 
set of 122 standards for consideration by NCA as criteria by which to 
judge success.
    Mr. Chairman, AMVETS fully supported the Study on Improvements to 
Veterans Cemeteries and believes it serves as a valuable planning tool 
for VA and Congress in establishing standards and priorities with 
regards to VA national cemeteries.
    Annual veteran deaths will remain high and annual interments will 
increase from approximately 97,000 in 2006 to an estimated peak of 
115,000 in 2009. If VA cemetery service capabilities are allowed to 
decline, then veterans and their families will lose access to burial 
options located within reasonable distances from their homes. AMVETS 
believes that honoring those who served through the NCA is an important 
part of our culture, history and national identity. We would encourage 
Congress to support NCA as it seeks to develop additional national 
cemeteries, expand existing capabilities, and also encourage individual 
States to develop State veterans cemeteries through the State Cemetery 
Grants Program.
    AMVETS continues to recommend that Congress establish a 5-year, 
$250 million ``National Shrine Initiative'' to restore and improve the 
condition and character of NCA cemeteries. Enacting a 5-year program 
with dedicated funds and an ambitious schedule, the national cemetery 
system holds the potential to fully serve all veterans and their 
families with the utmost dignity, respect, and compassion.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
                  Prepared Statement of Lesley Witter
 Director of Political Affairs, National Funeral Directors Association
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify before you today on behalf of the members of the 
National Funeral Directors Association (NFDA) regarding Veterans' 
Cemeteries. I am Lesley Witter, NFDA's Director of Political Affairs.
    The National Funeral Directors Association represents more than 
13,000 funeral homes and over 21,000 licensed funeral directors and 
embalmers in all 50 States. The average NFDA member is an independently 
owned and operated business with fewer than 10 employees and has been 
in the same family for over 60 years. NFDA is the leading funeral 
service organization in America, providing a national voice for the 
profession.
    The NFDA has a great interest in veterans' cemeteries as our 
members provide both funeral and burial services for our Nation's 
veterans on a daily basis. As a result, they use national veterans' 
cemeteries as well as State veteran's cemeteries often.
    In a recent survey of our members, we have received an almost 
unanimous response that our Nation's veterans' cemeteries operate 
efficiently, effectively and with much compassion for those being 
buried there, as well as for their families. Our members have found the 
management and operation of these cemeteries to be courteous, flexible 
and accommodating to the needs of the funeral director and the family 
members of the deceased veterans.
    While most of our members are well satisfied with the services 
provided to them by veterans' cemeteries, there are some improvements 
that could be made. As one of our Board members from Pittsburg, 
Pennsylvania recently stated: ``In Western P.A., we have been blessed 
with a National Cemetery with burials taking place for the past 18 
months. In my experience, those folks have done a superior job in 
scheduling and taking care of veterans' families. Every instance of 
burials in the National Cemetery of the Alleghenies has been respectful 
and dignified. My only concern is that there are not enough brochures 
to allow us to publicize its existence and availability.''
    An NFDA member from Maine stated that ``Togas National Cemetery, 
the only national cemetery in Maine, is now inactive but well-kept and 
is the final resting place for 5,373 veterans from the War of 1812 
through the Korean War. It was first opened in 1867 and was closed to 
new burials in 1961. Of historical interest, a Medal of Honor recipient 
from the ``Boxer Rebellion'' and three ``Buffalo Soldiers'' rest there. 
Additionally, a member of the Army detachment that located and killed 
John Wilkes Booth is buried there. The closest national cemetery to 
Maine is Massachusetts National Cemetery in Bourne, Massachusetts. 
Additionally, Connecticut, New Hampshire, Rhode Island and Vermont do 
not have any national cemeteries.''
    One NFDA member from Florida stated: ``Being in Southwest Florida 
and with the amount of retired veterans that have come to our beautiful 
side of the State, we deal regularly with the Florida National Cemetery 
as well as many times with Arlington National Cemetery. I couldn't be 
more pleased with how we are taken care of when we call the Florida 
National Cemetery. Everyone is pleasant, efficient and knowledgeable 
and the cemetery is kept up beautifully.''
    A Massachusetts member writes: ``I am a funeral director in 
Brockton, Mass. We have interments at the Massachusetts National 
Cemetery in Bourne probably 40-50 times a year. The entire staff at 
Bourne is fantastic. They are very helpful and accommodating to our 
families and us. I especially appreciate the improvement of being able 
to call the Jefferson Barracks in Missouri on weekends to schedule 
funerals in Bourne.'' NFDA would like to note that no veterans' 
cemeteries are available for burials on weekends, except in special 
circumstances. In fact, weekend burials in veterans' cemeteries appear 
to be a general problem for many of our members.
    An Illinois member stated: ``We use the Rock Island National 
Cemetery quite often; in fact, I have expressed my desire to be buried 
there since I am an eligible veteran of the Vietnam War. I really do 
not know of any way to make improvements. It is impossible to say 
enough good about the management, the way families are treated and the 
way funeral directors are treated. Please encourage the Veteran's 
Administration to leave it just as it is.''
    A comment from our New Jersey State Funeral Directors Association 
stated: ``New Jersey has one of the highest per capita population rates 
in the country. In addition, New Jersey and the surrounding States have 
some of the most congested roadways in the nation. Unfortunately, New 
Jersey veteran families are underserved by the location of the Mid-
Atlantic National Cemeteries. Funeral processions from the Garden State 
(originating in the North, Central or Southern part of the State) 
travel a minimum of 3 hours to the closest cemetery (Calverton, 
Arlington, or Indian Gap). Such excessive travel adds to the cost of 
the funeral and creates a travel burden on families who would like to 
visit the grave. Considering the population that would be served, the 
National Cemetery System should build a new cemetery that would be more 
convenient for New Jersey Veteran families.''
    Finally an Arizona member wrote: ``I am very pleased to be able to 
respond to your request regarding our National Cemeteries--in a 
positive light. We have a wonderful National Cemetery and Staff here in 
Phoenix. We have no problems with scheduling; if we need a ``favor'' 
every now and then, they are willing to go the extra mile for us. They 
are compassionate with families and are attentive to their needs as 
well as ours. I'm sure if you spoke with any of our other Directors 
they would agree.''
    I use these examples from around the country to illustrate that 
from our member's standpoint the operation and management of our 
veterans' cemeteries is of the highest caliber. Believe me, if it was 
not, our members would say so. They tend to be very protective of the 
families they serve, and want to ensure that all families are treated 
with respect and dignity during all phases of the funeral and 
interment.
    In our dealings with the National Cemetery Administration on 
issues, problems or questions that arise from time to time, our members 
found them to be very responsive and eager to assist in any way 
possible to find a solution. For example last year, one of our members 
in South Yarmouth, Massachusetts called to express concern over the 
number of broken or damaged markers they were receiving and the 
problems that caused for the families. We contacted NCA and they were 
very helpful in solving this matter directly with the funeral home. NCA 
advised the funeral home to be sure that their staff inspected the 
markers before accepting them and to report any damages to NCA. They 
also indicated that they would look into revising their transportation 
requirements for the vendors who manufacture and ship the markers to 
ensure they are being adequately packed and protected. We could not ask 
more from them.
    Finally, Mr. Chairman, I would like to express our strong support 
for H.R. 358, a bill that would expand and make permanent the 
Department of Veterans Affairs benefit for government markers for 
marked graves of veterans buried in private cemeteries. In addition, 
H.R. 1273 which was introduced by Subcommittee member Rep. Berkley and 
would direct the Secretary of Veterans Affairs to restore plot 
allowance eligibility for veterans of any war and to restore the 
headstone or marker allowance for eligible persons, is currently being 
reviewed by our Advocacy Committee.
    I would also like to commend the Committee on its passage of 
legislation that prohibits demonstrations at the funeral and burials of 
our fallen heroes in Afghanistan and Iraq. Our members very much 
appreciate the concern of Congress in protecting the privacy of these 
very solemn and emotional occasions.
    Mr. Chairman, that concludes my testimony. I hope it has been 
helpful.
    Thank you again for the opportunity to appear and present the views 
of the National Funeral Directors Association. I will be happy to 
answer any questions you or other Members of the Subcommittee may have.

                                 <F-dash>
        Prepared Statement of Colonel George S. Webb, USA (Ret.)
                  Chairman, Memorial Affairs Committee
    National Association of State Directors of Veterans Affairs, and
       Executive Director, Kansas Commission on Veterans' Affairs
    Subcommittee Chairman Hall, Ranking Subcommittee member Lamborn, 
and distinguished members of the Disability Assistance and Memorial 
Affairs Subcommittee, I am George Webb, Executive Director of the 
Kansas Commission on Veterans' Affairs and Chairman of the Memorial 
Affairs Committee of the National Association of State Directors of 
Veterans Affairs. On behalf of the President of our National 
Association, Secretary John Garcia of New Mexico, I thank you for the 
opportunity to testify and present the views of our State Directors of 
Veterans Affairs from all 50 States and our commonwealths and 
territories.
    We greatly appreciate the leadership of Chairman Filner, Ranking 
Member Buyer, and the entire membership of the House Veterans Affairs 
Committee for their past support of building upon the administration's 
budget, and we hope that it continues.
    Each State Secretary or Director is appointed by his or her 
Governor, and collectively we are the Nation's second largest provider 
of services to veterans. Our State Directors spend a total of over $4 
billion in State money annually to ensure that veterans receive all 
benefits due. We run State veterans' homes, oversee the management of 
State veteran cemeteries, and employ accredited and trained Veteran 
Service Officers. While each State structure differs slightly, these 
are the principal responsibilities of most of us. In some States, the 
Director also oversees the process of job training and employment for 
veterans. We are on the frontline assisting America's veterans with the 
benefits they have earned.
    The mission of the National Association of State Directors of 
Veterans Affairs is to work in collaboration with the Federal 
Government as it strives to disseminate information regarding all laws 
beneficial to veterans, their widows, and their children; to assist 
veterans and their dependants in the preparation and initiation of 
claims against the United States by reason of military service; and to 
assist veterans, widows, and children of veterans in establishing the 
privileges to which they are entitled. Our Association recognizes the 
great worth and merit of all existing veterans organizations, and we 
assert our willingness and determination to cooperate with them.
    Today I would like to address the Subcommittee on Disability 
Assistance and Memorial Affairs regarding State veterans cemeteries. 
Each State now has a National Cemetery and/or a State Cemetery--or 
more. Like others, we State Directors consider these cemeteries as 
shrines to veterans who helped preserve our freedom and memorials to 
those who contributed to the growth, development, and preservation of 
the United States. This final veteran's salute honors those who served 
our grateful Nation, so we State Directors are committed to ensuring 
that all veterans are buried with the respect and dignity they so 
deserve.
    During our Association conference in February, NASDVA members 
unanimously passed three resolutions: increase the Burial Plot 
Allowance, increase funding for the State Veterans Cemetery Grant 
Program (SCGP), and establish a State Veterans' Cemetery Operations 
Grant Program.
    Briefly stated, when a State veterans' cemetery project is 
approved, the VA fully funds its construction and initial equipment 
outlay, and the State then assumes operational costs in perpetuity. Mr. 
Chairman and Committee members, the average operational cost of 
interment in a State veterans' cemetery is $2,000, yet the current 
burial plot allowance of $300 per qualified interment covers only 15% 
of that cost. NASDVA recommends the Plot Allowance be increased to 
$1,000 in order to offset operational costs borne by the States. The 
increase should also apply to the plot allowance for veterans' 
interments in private cemeteries. Second, the State Veterans Cemetery 
Grant Program (SCGP) has greatly expanded our ability to provide 
gravesites for veterans and their eligible family members in areas 
where national cemeteries cannot fully satisfy burial needs, 
particularly in rural and remote areas. The program has allowed the 
number of State cemeteries to grow by nearly 40% over the past 5 years, 
with a corresponding increase in interments. Currently, over 40 project 
pre-applications are pending, totaling $180 million--yet VA funding for 
these projects has remained flat at $32 million for several years. We 
ask that SCGP funding be increased to $50M. Third, eligible States 
receive construction grants for veterans' cemeteries and a limited 
burial plot allowance as discussed above. Operational costs for State 
and national veterans' cemeteries continue to rise, but once a State 
establishes a State veterans' cemetery, there is no further source of 
Federal operational funding. NASDVA recommends the establishment of a 
Federal grant program to assist State veterans' cemeteries with 
operational costs.
    Last year the Congress authorized veterans' cemeteries on Native-
American tribal lands, but funding for this is expected to come from 
the same flat $32 million appropriated for State veterans' cemeteries.
    In addition, the VA uses a 75-mile radius calculation in 
determining where a State veterans' cemetery should be built. States 
with more traffic congestion would like some consideration by using 
driving time as an additional determinant.
    Finally, our State Directors wish to thank the Congress for two 
bills passed last year. Preventing persons convicted of capital crimes 
from being eligible for burial in our State cemeteries--as well as 
national cemeteries--is important. Second, the bill passed in December, 
which became PL 109-464, is an important step in keeping military 
funerals dignified and respectful.
                               CONCLUSION
    Mr. Chairman and distinguished members of the Committee, we respect 
the important work that you have done to improve benefits to veterans 
who have answered the call to serve our Nation. NASDVA remains 
dedicated to doing its part, but we urge you to be mindful of the 
increasing financial challenge that States face, just as you address 
the fiscal challenge at the Federal level. We remain dedicated to our 
partnership with the VA in the delivery of services and care to our 
Nation's veterans. This concludes my statement, and I am ready to 
answer any questions you may have.

                                 <F-dash>
              Prepared Statement of Hon. William F. Turek
 Under Secretary for Memorial Affairs, National Cemetery Administration
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to testify today on veterans cemeteries 
and the current activities of the National Cemetery Administration 
(NCA).
    NCA is one of three Administrations within the Department of 
Veterans Affairs (VA). NCA and the Veterans Benefits Administration 
(VBA), which is responsible for burial flags and monetary burial 
benefits, jointly administer the VA's burial and funeral benefits for 
veterans. We, in NCA, have four statutory missions under Title 38, 
United States Code:

    <bullet>  To provide burial for eligible veterans and their 
eligible dependents, and to maintain those places of burial as national 
shrines;
    <bullet>  To provide Government-furnished headstones and markers 
for the graves of eligible veterans worldwide;
    <bullet>  To administer the State Cemetery Grants Program (SCGP), 
under which NCA provides, as grants, up to 100 percent of the 
development cost for establishing, expanding and improving veterans 
cemeteries owned and operated by the States; and
    <bullet>  To administer the Presidential Memorial Certificate (PMC) 
program, under which NCA provides to the families and loved ones of 
honorably discharged, deceased veterans Certificates bearing the 
signature of the President to commemorate the veterans' service.

    NCA currently maintains more than 2.8 million gravesites at 125 
national cemeteries in 39 States and Puerto Rico, as well as 33 
soldiers' lots and monument sites. Since 1973, when Congress created a 
National Cemetery System under the jurisdiction of VA, annual 
interments in VA national cemeteries have almost tripled from 36,400 to 
about 97,000 in FY 2006. (We expect to perform nearly 105,000 
interments in 2008, an 8.3-percent increase over the number performed 
in 2006.) NCA processed more than 336,000 applications for Government-
furnished headstones and markers for the graves of veterans worldwide 
in FY 2006. In FY 2006, NCA also issued nearly 406,000 Presidential 
Memorial Certificates to the families of eligible veterans. Sixty-five 
State veterans cemeteries funded under the SCGP are operated in 33 
States, Guam and Saipan.
    This is a very important period in NCA history as we experience an 
unprecedented expansion to match the unprecedented growth in the 
population of veterans we serve. We seek to undergo this expansion 
while maintaining the highest level of service to our veterans in all 
our program areas. The results of the reports required by the Veterans 
Millennium Health Care and Benefits Act of 1999 have served as valuable 
tools for the Department by providing data for use in our planning 
processes. Armed with the data generated by these reports, we have been 
able to plan effectively, particularly in the areas of meeting the 
burial needs of veterans and in maintaining our national cemeteries as 
national shrines. I appreciate this opportunity to describe some of our 
current initiatives and several of our major accomplishments.
Meeting the Burial Needs of Veterans
    One of VA's primary missions is to ensure that the burial needs of 
veterans are met. In support of this mission, VA's goal is to increase 
service delivery by providing more veterans with reasonable access to a 
burial option (whether for casketed or cremated remains) in a national 
or State veterans cemetery within 75 miles of their residence. VA's 
current policy is to locate national cemeteries in areas with the 
largest concentration of unserved veterans. VA and Congress have 
determined that new national cemeteries will be established in areas 
with an unserved veteran population threshold of 170,000 within a 75-
mile service radius. This policy has enabled VA to focus resources on 
serving areas in which high concentrations of veterans do not have 
access to a burial option.
    Annual veteran deaths have increased significantly over the years 
as World 
War II and Korean War-era veterans have advanced in age. Based on the 
2000 U.S. Census, there were an estimated 644,000 veteran deaths in FY 
2000. Annual veteran deaths were projected to peak at 688,000 in FY 
2006 and then to slowly decline. However, with the opening of new 
national cemeteries, annual NCA interments are projected to increase 
from 97,000 in FY 2006 to 115,000 in FY 2009, an increase of 19 
percent.
    We are working diligently to meet the burial needs of individuals 
who served during previous periods of conflict. But we are working even 
harder to do everything possible to accommodate the special needs of 
family members who have lost a loved one serving overseas in Operation 
Enduring Freedom or Operation Iraqi Freedom (OEF/OIF). As of the end of 
April 2007, 686 OEF/OIF servicemen and women have been interred in 
either a VA or a State veterans cemetery. In addition, 1,347 headstones 
or markers have been provided for fallen OEF/OIF servicemembers who are 
buried in private cemeteries. To honor these brave men and women, we 
expedite the placement of headstones or markers and, where possible, we 
accommodate burial requests even in closed national cemeteries if a 
gravesite is available due to, for example, the reclamation of a 
previously-obstructed or previously-reserved gravesite.
    Of the 125 national cemeteries operated by NCA, 65 cemeteries have 
gravesites available for the first interment of casketed and cremated 
remains; 21 cemeteries can accommodate the first interment of cremated 
remains only (along with the remains of subsequent family members); and 
the remaining 39 cemeteries can only provide burial for the remains of 
subsequent family members.
    Our ability to provide reasonable access to a burial option is a 
critical measure of the effectiveness of our service delivery to 
veterans and their families. Currently, over 80 percent of all veterans 
in the Nation reside within a 75-mile radius of a national or State 
veterans cemetery. NCA intends to increase the percentage of veterans 
served to 90 percent by FY 2010. Strategic initiatives are in place to 
meet this goal. They are:

    <bullet>  Establishment of additional national cemeteries in 
unserved areas;
    <bullet>  Expansion of existing national cemeteries to provide 
continued service; and
    <bullet>  Establishment or expansion of State veterans cemeteries 
through the SCGP.

    The Future Burial Needs report, completed in 2002, is the most 
recent demographic study completed to assist the National Cemetery 
Administration in its long range planning. The report assessed the 
number of additional cemeteries needed to ensure that 90 percent of 
veterans live within 75 miles of a national or State veterans cemetery, 
and identified 31 locations with the greatest concentration of unmet 
need for burial spaces. In June 2003, VA transmitted to Congress 
revised veteran population estimates, based on 2000 United States 
Census data, for all locations identified in the report. From these two 
listings, 12 locations were identified as having the greatest number of 
veterans with unserved burial need; all met VA's veteran population 
threshold of 170,000 for planning new national cemeteries. Public Law 
106-117 directed the Secretary to build six new national cemeteries; 
six additional locations were identified in Public Law 108-109, the 
National Cemetery Expansion Act of 2003. In tandem, then, these 
statutes mandated that NCA construct 12 new national cemeteries.
Establishing New National Cemeteries
    As required by law, VA is well along in establishing 12 new 
national cemeteries. The first six of these new national cemeteries--
those mandated by Public Law 106-117--are currently open for burials, 
providing service to veterans in six geographic areas: Atlanta, 
Georgia; Detroit, Michigan; Ft. Sill, Oklahoma; Pittsburgh, 
Pennsylvania; Sacramento, California; and South Florida. These 
cemeteries now provide service to 2 million veterans who had resided in 
areas not previously served by a national or State veterans cemetery.
    Forearmed with the VA's veteran population threshold for 
establishing new cemeteries and the locations recommended by the Future 
Burial Needs report, Congress enacted the National Cemetery Expansion 
Act of 2003 (Public Law 108-109) in November 2003. This legislation 
directs VA to establish six additional national cemeteries near 
Bakersfield, California; Birmingham, Alabama; Columbia/Greenville, 
South Carolina; Jacksonville, Florida; Philadelphia, Pennsylvania; and 
Sarasota County, Florida. Funding of $41 million was appropriated in FY 
2006 for land acquisition costs, and $12 million was appropriated in FY 
2007 for preliminary design work. Funding of $137 million is included 
in NCA's FY 2008 major construction request for the six new cemeteries.
    At this point, we have identified cemetery sites for all six 
locations specified in Public Law 108-109, and we have taken title to 
one of these six sites. We anticipate taking title to the other five 
sites this year. Our goal is to have early turnover gravesite sections 
open in all six new cemeteries by 2009. NCA has begun opening early 
turnover ``fast track'' gravesite sections in new cemeteries to 
expedite the initiation of burial operations. We have found that the 
families of veterans prefer this approach to the alternative of waiting 
for the construction of the entire first phase of a cemetery to be 
completed.
Expanding and Improving Current National Cemeteries
    NCA will continue to expand, and make improvements to, existing 
national cemeteries by acquiring additional land and completing 
development projects that make additional gravesites or columbaria 
available for interments. We have major and minor construction projects 
underway to expand the life cycles of several national cemeteries so 
that they can continue to meet the burial needs of veterans in their 
geographic regions. Included in the President's FY 2008 budget request 
is a major expansion project at Fort Sam Houston National Cemetery for 
$29.4 million. Also included is $24.4 million for the minor 
construction program which will focus primarily on gravesite expansion 
projects.
    We are also looking at our internal processes to ensure that we are 
maximizing the use of resources and giving veterans ever-improving 
services. These activities range from establishing a national training 
center to prepare the next generation of cemetery directors to 
restructuring the processing of both interment and headstone and marker 
applications to better serve the needs of families and funeral 
directors. In the area of facilities, we are implementing multiple 
efficiencies in our cemeteries to maximize the yield of burial spaces 
from our cemetery properties and, simultaneously, reduce future grounds 
maintenance costs. This includes the use of pre-placed graveliners that 
are installed at the time of burial section's construction. Pre-placed 
graveliners allow for a greater number of gravesites in a section 
because their installation precludes the need for buffer space between 
individual burial sites.
    We are also responding to changes in burial preferences by veterans 
and their families by constructing a greater number of columbaria for 
the interment of cremated remains. This permits us to increase the 
number of burials that can be accommodated at a given site, and at the 
same time, be responsive to demand for this burial option. The choice 
of cremation over full-casket burial continues to increase in private 
and national cemeteries. The Cremation Association of North America 
projects that the national cremation rate will increase from 31 percent 
(in 2004) to 38 percent (in 2010) and to 51 percent (in 2025). In some 
States, the projected national average is already exceeded. In 2004, 
California had a cremation rate of 51 percent and Florida had a 
cremation rate of 48 percent. For fiscal year 2006, NCA's cremation 
rate was 40 percent of all interments performed. We anticipate that 
this number will continue to increase consistent with the national 
trend.
Providing Grants for State Veterans Cemeteries
    The State Cemetery Grants Program is vital to achieving NCA's 
burial access goal and permitting NCA to meet the needs of veterans in 
less populated areas where the concentration of veterans cannot meet 
NCA's criterion for the establishment of a national cemetery. NCA 
provides funding up to 100 percent of the development and start up 
equipment costs for State veterans cemetery projects. The SCGP was 
first established by Public Law 95-476 in 1978 to complement VA's 
network of national cemeteries. The program received permanent 
authority in 2003 with the enactment of Public Law 108-183.
    The purpose of NCA State cemetery grants is to establish, expand or 
improve veterans cemeteries that are owned and operated by the States. 
Cemeteries established under the grant program must conform to VA-
prescribed standards and guidelines for site selection, planning, 
construction, appearance and operations. State cemeteries must be 
operated solely for the interment of servicemembers who die on active 
duty and veterans, and their spouses, minor children, and disabled 
adult children.
    To date, VA has awarded 153 grants totaling more than $271 million 
to establish, expand or improve 70 veterans cemeteries in 35 States 
plus Guam and Saipan. Sixty-five cemeteries are now operational. Five 
new State cemeteries are now under construction. There is no limit to 
the number of veterans cemeteries a State may have under the grant 
program. Some States, such as Missouri, North Carolina, Tennessee, and 
Wisconsin, have been pro-active and have opened State veterans 
cemeteries to coincide with the anticipated closure of nearby VA 
national cemeteries. In FY 2006, State veterans cemeteries provided for 
22,434 burials.
    When the SCGP was established, the program provided grants of only 
50 percent of the total cost of the establishment, expansion or 
improvement of a State veterans cemetery. Under the original law, the 
value of the land could be counted toward the State's matching share, 
with certain limitations. The Veterans Benefits Enhancement Act of 
1998, Public Law 105-368, authorized NCA to pay up to 100 percent of 
the development cost of establishing, improving or expanding State 
veterans cemeteries--but States are now required to furnish the land 
upon which the cemetery will be built. In addition, VA may provide 
funding for the purchase of equipment needed to operate a new State 
veterans cemetery at the time the cemetery is first established.
    Largely in response to this recent legislation, State interest in 
participating in the SCGP has increased. Since 2001, 22 new State 
veterans cemeteries have opened in 17 States. (With the opening of the 
Idaho Veterans Cemetery in 2004, there is now a national or State 
veterans cemetery in each State in the Union.) In addition, States have 
submitted 43 ``pre-applications'' for grant funding, totaling an 
estimated $170 million, that have been preliminarily approved by VA. 
These projects include 21 projects to establish new cemeteries. Several 
would be built near major military installations such as Fort Riley, 
Kansas; Fort Stewart, Georgia; Ft. Leonard Wood, Missouri; and Fort 
Polk, Louisiana. Others would serve veterans in moderately-sized 
metropolitan areas such as Des Moines, Iowa and Abilene, Texas. Many 
are in rural areas remote from existing national or State veterans 
cemeteries, such as Missoula, Montana and Alliance, Nebraska.
    As the National Cemetery Administration proceeds with construction 
of the last 6 of the 12 new national cemeteries mandated by Congress, 
and as it continues to provide grants to the States for construction of 
State veterans cemeteries, we believe it is time to reassess current 
policies and to think strategically about how we will meet the needs of 
veterans in the future. To do this, VA has commissioned a burial needs 
assessment study that will address issues such as:

    <bullet>  Assessment of VA's current 75 mile service area standard;
    <bullet>  Adequacy of the 170,000 veteran population threshold for 
planning new national cemeteries;
    <bullet>  Role of State cemetery grants in meeting veterans' burial 
needs; and
    <bullet>  Potential use of cremation-only burial sites or 
mausoleums in meeting veterans' burial needs and preferences.

    We will be pleased to share this needs assessment study report with 
the Congress as soon as we receive it early next year.
Maintaining National Cemeteries as National Shrines
    One of NCA's statutory mandates is to maintain national cemeteries 
as national shrines. A national shrine is a place of dignity, a place 
that declares to the visitor that each veteran who rests within is 
honored for his or her service and sacrifice. Our visitors should 
depart feeling that the grounds, the gravesites and the environs of the 
national cemetery are a beautiful and awe-inspiring tribute to those 
who gave much to preserve our Nation's freedom and democratic way of 
life. As national shrines, VA's cemeteries serve a purpose that 
continues long after burials have ceased and visits from immediate 
families and loved ones have ended.
    National cemeteries carry expectations of appearance that set them 
apart from their civilian counterparts. As required by the Veterans 
Millennium Health Care and Benefits Act, VA contracted for an 
independent study to identify the repairs needed to ensure a dignified 
and respectful setting at each national cemetery. The report, National 
Shrine Commitment, was delivered to Congress in August 2002. This 
report provided the first independent, systemwide, comprehensive 
assessment of the condition of VA assets at 119 national cemeteries. It 
also identified 928 projects needed to repair, alter, or improve 
existing cemetery elements at a then-estimated cost of $280 million. 
Through 2006, NCA had expended $99 million to complete work on 269 of 
these projects. We anticipate expending an additional $16 million on 
such projects in FY 2007.
    NCA is making steady progress to address cemetery maintenance and 
repair needs. We are using the information in the National Shrine 
Commitment report to plan and accomplish the repairs needed at each 
cemetery in addition to performing upgrades by means of normal 
maintenance operations and as part of larger-scale construction 
projects. We are also using data from NCA's Annual Survey of 
Satisfaction with National Cemeteries to factor in the viewpoint of 
veterans and their families when determining project priorities. 
Project priorities are revalidated on a semi-annual basis within NCA's 
facilities and construction planning process. I participated in the 
most recent review just 2 weeks ago.
    We are addressing long-standing deferred maintenance needs in a 
variety of ways. Repair and renovation projects to improve the overall 
appearance of national cemeteries remain a high priority in allocating 
operational resources. These projects include establishing a healthy 
stand of turf appropriate for the geographic area, renovating 
gravesites to ensure a level grade and that there are no sunken graves, 
and realigning and cleaning headstones and markers. Improvements to 
cemetery infrastructure, including repairs to buildings, roads, 
committal shelters, irrigation systems and historic structures, are 
being addressed through major and minor construction projects. In 
addition, cemetery staff members are able to complete some of the 
identified repairs without resorting to outside contracts.
    NCA has implemented several management initiatives to make the most 
effective use of existing resources to ensure that national cemeteries 
are maintained in a manner befitting their status as national shrines. 
For example, we have established operational standards and a new 
accountability system for assessing progress toward achieving our 
performance goals. In January 2003, NCA issued a comprehensive set of 
standards for performance in the key cemetery operational areas of 
Interments, Grounds Maintenance, Headstones and Markers, Equipment 
Maintenance, and Facilities Maintenance. These standards were developed 
to provide guidance and direction for maintaining national cemeteries 
as national shrines. The standards and measures provide quantifiable 
goals and expectations that are applied at both open and closed 
national cemeteries. In November 2004 and again in February of this 
year, we updated our standards and measures based on input received 
from NCA managers and field operations staff who serve our veterans on 
the frontline.
    NCA has also established a comprehensive program by which the 
performance of all organizations within NCA is assessed, monitored, and 
reported. The Organizational Assessment and Improvement Program (OAI) 
combines the traditional elements of an inspections program with the 
proven concepts of organizational excellence. The program is structured 
after the quality criteria contained in the VA Carey Performance 
Excellence program which, in turn, is based on the Malcolm Baldrige 
criteria for organizational excellence. The structure assesses 
organizational leadership, planning, customer-focused quality, 
performance measurement, human resources, and process management to 
ensure the effective and efficient delivery of benefits and services to 
our Nation's veterans. The concept incorporates both a focus on 
operational processes and compliance with internal controls as well as 
a management program to improve organizational performance. This 
internal audit-based program is a combination of regular self-
assessment and periodic site visits by teams of NCA employees to 
validate business and service delivery results and to measure the 
progress of the national cemetery in meeting national shrine standards 
of appearance. OAI allows us to identify projects, and allocate 
valuable resources, objectively. The program is in its third year and 
has become a valuable tool in assessing performance measures at all VA 
national cemeteries.
    Additional NCA Achievements. NCA will continue to focus on meeting 
both the short- and long-term burial needs of veterans and fulfilling 
the public's expectation of appropriate maintenance standards. We have 
undertaken numerous related projects; I would like to share some 
additional recent successes and accomplishments with you.
    Timeliness of Marking Graves in National Cemeteries. The amount of 
time it takes to mark the grave with a Government-furnished headstone 
or marker after an interment is important to veterans and their family 
members. Consequently, it is important to us. The headstone or marker 
is a lasting memorial that serves as a focal point not only for 
present-day survivors but also for future generations. In addition, it 
often brings a sense of closure to the family to see the grave marked. 
We have sought and achieved significant reductions in the time required 
to mark a grave. In 2006, 95 percent of graves in national cemeteries 
were marked within 60 days of interment, a significant improvement over 
the performance level of 49 percent in 2002. Today we exceed the goal 
of 90 percent, and we strive to have the grave marked at the time of 
interment for OEF/OIF servicemembers.
    NCA Training Center. In order to ensure a high-performing, well-
trained work force, the National Cemetery Administration Training 
Center was established in 2004. The Training Center emphasizes core 
leadership skills and provides the training necessary to assure that 
high quality service is provided to veterans and their families and 
that the national cemeteries are maintained as national shrines. 
Initially focused on training cemetery directors and assistant 
directors, the new facility has expanded its classes to train 
supervisors, equipment operators, grounds keepers, cemetery 
representatives, and other NCA and State veteran cemetery employees. As 
12 new national cemeteries become operational, the Training Center will 
ensure consistency in operations throughout all national cemeteries. It 
will also ensure that a high-performing work force and a well-trained 
staff is on hand in key cemetery positions. The third class of cemetery 
director interns will graduate in August 2007. These new graduates join 
a national cemetery work force comprised of more than 70 percent 
veterans.
    NCA Nationwide Scheduling Center. Located in St. Louis, the NCA 
Nationwide Scheduling Center was opened in January 2007 to increase 
efficiencies and expedite eligibility determinations and interment 
scheduling. As a one-stop phone-in Center, it ensures consistent 
eligibility determinations and provides faster interment scheduling for 
families and funeral homes. Funeral homes are no longer required to 
provide a paper application--veteran or dependent information can now 
be provided via phone or fax.
    Memorial Programs Service Initiatives. NCA operates an applicant 
assistance call center here in Washington that provides information on 
headstone and marker delivery status, as well as general information 
about Memorial Programs Service benefits. The call center responds to 
approximately 1,500 calls weekly. Additionally, to improve customer 
service and the efficiency of our headstone and marker program for 
veterans buried in private cemeteries, NCA implemented a toll-free fax 
line in 2002 that allows us to accept and transfer applications 
electronically, as images, into our automated application processing 
system. The incoming documents are not printed; they are managed 
strictly as electronic images. In FY 2006, we received 37 percent of 
our applications--about 78,000 per year--in this manner. The process 
has been extremely popular with funeral homes and with veterans service 
organizations that help families apply for headstone or marker 
benefits.
    Headstone and Marker E-Application Initiative. This initiative will 
allow families and their representatives to submit applications for 
Government headstones and markers using a Web-based version of the VA 
Form 40-1330. We recently tested this initiative at a conference, and 
the feedback from the general public was positive. The e-application 
will be available to the public within the next 2 months.
    Nationwide Gravesite Locator. In 2004, NCA launched a Web-based 
Nationwide Gravesite Locator (NGL) system. This innovation makes it 
easier for anyone with Internet access to search for the gravesite 
locations of deceased family members and friends, and to conduct 
genealogical research. The nationwide grave locator currently contains 
more than 6 million records. It provides interment information for 
veterans and dependents buried in VA's 125 national cemeteries since 
the Civil War, and more recent records (1999 to the present) for 
burials in State veterans cemeteries and Arlington National Cemetery. 
Information on headstones and markers sent to private cemeteries for 
placement on veteran's graves was recently added to assist families. 
The NGL is accessed approximately 1.5 million times annually.
    Outreach Activities. Last week I attended NCA's first annual vendor 
conference designed to share information on NCA's procurement 
processes. Approximately 85 vendors, many Service Disabled Veteran-
Owned Small Businesses and Veteran-Owned Small Businesses, attended 
this event which we believe will encourage increased participation by 
such businesses in our contracting process. Public outreach activities 
continue to increase with NCA participation at 10 national conferences 
last year, including the National Funeral Directors Association 
conference. Additionally, I conduct bi-annual meetings with Veterans 
Service Organization representatives to exchange information and to 
ensure they are informed of current NCA program initiatives.
    Memorial Inventory Project. Working with Save Outdoor Sculpture! 
(SOS!), a non-profit organization that uses volunteers to survey public 
outdoor sculpture nationwide, NCA has developed its first comprehensive 
inventory of memorials located in VA national cemeteries and in our 
soldiers' lots and monument sites. Since national cemeteries were 
established in 1862, they have become the sites of memorials erected to 
recall distinctive heroics, group burials, and related commemorations. 
The inventory, which identifies over 850 monuments and memorials, will 
help NCA prioritize conservation needs and develop a maintenance plan 
for all of its memorials. Nearly 400 volunteers participated in this 
inventory project. The results will be searchable on NCA's Website.
    American Customer Satisfaction Survey. As part of the 2004 American 
Customer Satisfaction Index (ACSI) surveys, NCA's national cemeteries 
achieved a customer satisfaction rating of 95 out of a possible 100 
points. This is the highest score ever achieved by a Federal agency or 
private organization participating in the ACSI. The ACSI study polled 
next of kin or individuals who had arranged for the interment of a 
loved one in a VA national cemetery within the past 6 months to 1 year. 
The outstanding results achieved by NCA are a testament to the 
dedication and hard work of NCA's employees as they serve veterans and 
their families during difficult and emotional times.
    Increased Volunteerism. NCA works closely with the VA's Voluntary 
Service Program (VAVS) to increase opportunities for individuals to 
perform volunteer work at VA national cemeteries. VAVS coordinates with 
public and private voluntary service programs to match volunteers with 
our national cemeteries needs. Volunteers are an enthusiastic force 
dedicated to serving veterans. During the past few years, NCA has 
developed volunteer opportunities ranging from the provision of 
military funeral honors to supporting historic preservation needs at 
our cemeteries. We have also partnered with VBA's Vocational 
Rehabilitation and Employment Program ``Coming Home to Work'' 
initiative to place OEF/OIF veterans in vacant positions throughout the 
NCA system.
    Innovation. In our search to identify how best to accomplish our 
mission, NCA has formalized a Research and Development program to 
encourage and share innovation throughout our system. Through this 
program, we have received provisional patents on a Mower/Trimmer that 
was developed at Calverton National Cemetery and a pivotal casket 
carrier--a device that allows cemetery staff to maneuver caskets easily 
between headstones--developed at Rock Island National Cemetery. Toro is 
building prototypes of both innovations, based on our designs, for 
possible commercial application. Also, we have partnered with the 
National Park Service to test biological cleaning products on marble 
headstones. The goal here is to find products that effectively clean 
headstones, and are user-friendly, environmentally safe, and cost 
effective.
Closing
    Thank you, again, for the opportunity to share with you an overview 
of NCA's current activities. I look forward to working with the members 
of this Subcommittee as we jointly meet the burial needs of the 
veterans we are trusted to serve. I would be pleased to answer any 
questions.
                 POST-HEARING QUESTIONS FOR THE RECORD
   Questions from Hon. Phil Hare, Member, Subcommittee on Disability
Assistance and Memorial Affairs, and Responses from Hon. William Turek,
Under Secretary for Memorial Affairs, National Cemetery Administration,
                  U.S. Department of Veterans Affairs
           ``Veterans Cemeteries: Honoring Those Who Served''
    Question 1: Traditionally, the VA has not only provided benefits, 
but has also offered opportunity for gainful employment for many 
veterans. What percentage of cemetery jobs are held by veterans?

    Response: At the end of fiscal 2006, veterans held 70 percent of 
cemetery field operations positions within the National Cemetery 
Administration (NCA).

    Question 2: What has the VA response been to recent concerns raised 
by the American Federation of Government Employees' reports that VA 
National Cemeteries are contracting out Federal work without benefit of 
any public-private competitions?

    Response: NCA has notified the American Federation of Government 
Employees that we are researching the issue of competitive sourcing 
used to achieve our mission of establishing and maintaining national 
shrines for our Nation's veterans and their families. We will provide a 
comprehensive response upon completion of the review.

                                 <F-dash>

                             National Funeral Directors Association
                                                    Washington, DC.
                                                       May 17, 2007

Committee on Veterans' Affairs
Subcommittee on Disability Assistance and Memorial Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Mr. Chairman,

    Thank you for the opportunity to testify before the Committee on 
Veterans' Affairs Subcommittee on Disability Assistance and Memorial 
Affairs, on May 8, 2007, on behalf of the members of the National 
Funeral Directors Association (NFDA) regarding Veterans Cemeteries. I 
am responding to questions asked by Members of the Subcommittee on 
Disability Assistance and Memorial Affairs.
    Congressman Bilirakis (R-FL) requested more information on what 
happens to veterans who are indigent or whose family can not afford to 
pay for a funeral or burial.
    The Department of Veterans Affairs has procedures in place to deal 
with this issue. VA burial benefits help to offset the costs of the 
veteran's burial, funeral, and plot-interment. If a military service-
related injury or disease caused the veteran's death, the DVA will pay 
up to $2,000 toward burial expenses. If the veteran is buried in a VA 
national cemetery, some or all of the costs for transporting the 
veteran's remains may be reimbursed. In certain non-service-related 
deaths, the DVA will pay up to $300 toward burial and funeral expenses, 
and $300 as a plot-interment allowance. If the veteran died in a VA 
hospital or under VA contracted home care, some or all of the costs for 
transporting the deceased's remains may be reimbursed.
    The DVA has also established eligibility criteria for non-service-
related death benefits, which are applicable if the veteran was 
receiving VA compensation or pension at the time of death, or the 
veteran was entitled to receive VA compensation but decided not to 
reduce his/her military retirement or disability pay, or the veteran 
died in a VA hospital or while in a nursing home under VA contract, or 
while in an approved state nursing home, or there is no next of kin or 
other person claiming the remains of the veteran, and there are not 
available sufficient resources to cover burial and funeral costs, and 
the veteran served honorably in the U.S. Armed Forces during any war or 
was discharged from the military because of a service-connected 
disability.
    Generally, the DVA will pay the allowances to the person (or 
entity) who paid for the veteran's burial or funeral, if he/she has not 
been reimbursed by another Government agency or some other source such 
as the veteran's employer. There is no time limit for claiming 
reimbursement of burial expenses for a service-related death. In non-
service-related deaths, the claim must be filed within 2 years of the 
veteran's burial.
    Mr. Bilirakis also requested information on what percentage of 
veterans chose cremation.
    In the general population, it is estimated that roughly 70% of 
annual dispositions are ground burials, whereas 30% are cremations. The 
Cremation Association of North America projects that the national 
cremation rate will increase from 31 percent (in 2004) to 38 percent 
(in 2010) and to 51 percent (in 2025). The current War on Terrorism has 
resulted in approximately 10-11% of those being buried at Arlington 
National Cemetery choosing cremation, whereas the overall cremation 
rate at Arlington National Cemetery is much lower.
    Congressman Hare (D-PA) requested information regarding what NFDA 
members think can be done to improve veterans outreach about 
eligibility and availability of veterans cemeteries.
    The National Funeral Directors Association works diligently to keep 
our members apprised of information relating to veterans' burials and 
memorial benefits and veterans cemeteries. Our Website hosts a great 
deal of information, and Web links, designed to help our members 
provide meaningful burials for veterans. Topics on our Website include: 
Department of Veterans Affairs--Burials and Memorials, United States 
Navy: Burial at Sea Program, Proposed Changes to VA Headstone and 
Marker Application, Nationwide Gravesite Locator, Allowance for Private 
Purchase of an Outer Burial Receptacle in Lieu of a Government-
Furnished Grave Liner for a Grave in a VA National Cemetery, Service 
Regulations Related to the Purchase of Uniforms and Accessories by 
Veterans for Wear During a Military Funeral, Military Family Tax Relief 
Act, Veterans Benefits, Veterans Survivors' Benefits, Military Funeral 
Policy, Military Funeral Honors, Military Repatriation and Funeral 
Protocol, DoD Ceremonial Bugle, Bugles Across America, Burial of 
Unclaimed, Indigent Veterans and a listing of Veterans Affairs Offices.
    While NFDA makes every effort to ensure that our members are up to 
date on information regarding eligibility and availability of veterans' 
cemeteries, we believe that the issue of how best to improve outreach 
to veterans is best handled by the DVA.
    I hope these answers suffice in response to the questions posed by 
the members of the Subcommittee.

            Sincerely,
                                                      Lesley Witter
                                      Director of Political Affairs

                                  <all>

</pre></body></html>
